<html>
<title> - INVESTING IN HOMELAND SECURITY: CHALLENGES FACING STATE AND LOCAL GOVERNMENTS</title>
<body><pre>[Senate Hearing 108-83]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-83

   INVESTING IN HOMELAND SECURITY: CHALLENGES FACING STATE AND LOCAL 
                              GOVERNMENTS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



88-248              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
              Tim Raducha-Grace, Professional Staff Member
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
        Michael L. Alexander, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     4
    Senator Levin................................................    11
    Senator Coleman..............................................    29
    Senator Carper...............................................    36
Prepared statement:
    Senator Voinovich............................................    43

                               WITNESSES

Hon. Carolyn C. Kilpatrick, a Representative in Congress from the 
  State of Michigan..............................................     7
Hon. Mitt Romney, Governor, State of Massachusetts; on behalf of 
  the National Governors' Association............................     8
Hon. Kwame M. Kilpatrick, Mayor, City of Detroit, Michigan.......    13
Arthur W. Cleaves, Director, Maine Emergency Management Agency...    16
Mark J. Stenglein, Commissioner, Board of Commissioners, Hennepin 
  County, Minnesota..............................................    19

                     Alphabetical List of Witnesses

Cleaves, Arthur W.:
    Testimony....................................................    16
    Prepared Statement...........................................    60
Kilpatrick, Hon. Carolyn C.:
    Testimony....................................................     7
Kilpatrick, Hon. Kwame M.:
    Testimony....................................................    13
    Prepared Statement...........................................    55
Romney, Hon. Mitt:
    Testimony....................................................     8
    Prepared Statement...........................................    45
Stenglein, Mark J.:
    Testimony....................................................    19
    Prepared Statement...........................................    63

                                Appendix

Questions and Responses for the Record from:
    Hon. Romney..................................................    70
    Hon. Kilpatrick..............................................    72
    Mr. Cleaves..................................................    76
    Mr. Stenglein................................................    79
City of Detroit Action Plan for Homeland Security, Background 
  Paper, April 4, 2002, submitted by Senator Levin...............    90
Mayor Dick Murphy, City of San Diego, California, prepared 
  statement......................................................   103
Larry Naake, Executive Director, National Association of 
  Counties, prepared statement...................................   106
County of Arlington, Virginia, prepared statement................   115

 
                    INVESTING IN HOMELAND SECURITY:
                      CHALLENGES FACING STATE AND
                           LOCAL GOVERNMENTS

                              ----------                              


                         THURSDAY, MAY 15, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
room S-128, The U.S. Capitol Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Lieberman, Carper, and 
Levin.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Somehow 
pounding the gavel very loudly when you are right across from 
me seems redundant this morning.
    I want to welcome everybody to the Committee on 
Governmental Affairs as we continue our efforts to strengthen 
homeland security grant programs for States, communities and 
first responders. This is third in a series of hearings that 
the Committee has held as we seek to craft legislation to make 
sure that we have the right process and procedures in place to 
help our States, communities and first responders respond to 
the challenges of homeland security.
    This hearing originally was scheduled to be held in the 
Dirksen Building in our Committee Room, but late last night, in 
a stroke of bad luck for us, the Senate scheduled 12 back-to-
back votes, so the Chairman of the Appropriations Committee was 
kind enough to let us use this magnificent room. As Governor 
Romney has pointed out, this is a room where money decisions 
are made, so perhaps it is appropriate that we meet here today.
    Much of the burden for homeland security has fallen on the 
shoulders of State and local officials across America, 
especially our first responders, the firefighters, police 
officers, and ambulance crews on the front lines. They are 
meeting this challenge and responding with innovative 
strategies. Instead of facilitating these new ideas, however, 
the fragmented Federal Homeland Security grant programs and 
their confusing regulations are a maze in which innovation 
often gets stifled.
    Hearing the experiences of State, local and county leaders 
here today will help the Committee better understand the size 
and complexity of this maze. Listening to their ideas will help 
in our efforts to straighten it out and make a reasonable path.
    Earlier this year I met with officials of Maine's Emergency 
Management Agency, including Director Art Cleaves, who joins us 
here today. Time and time again I heard from Mr. Cleaves, as 
well as from others, that the rigid structure of many homeland 
security grant programs frustrates their efforts to help first 
responders secure communities across our States. I believe that 
all States should have more flexibility in how they spend 
Homeland Security dollars to make sure they are designated for 
where they are most needed.
    To allow flexibility in Homeland Security funds that have 
already been appropriated but remain unspent, Senator Lieberman 
and I, along with other Members of the Committee, have 
introduced legislation that authorizes the Department of 
Homeland Security to grant waivers, allowing States to use 
funds from one category, such as equipment, for training or 
other purposes. I am pleased to be joined in this effort not 
only by the distinguished Ranking Member of this Committee, but 
by several other of my colleagues.
    The current lack of flexibility is not the only confusing 
path that State and local officials are forced to navigate; for 
lack of coordination among the various Federal grant programs 
is another. At our last hearing with Secretary Ridge, I 
announced a series of principles for legislation that I will 
introduce to provide a map that will better connect our front 
line protectors with the funding they need.
    Today, Senator Russ Feingold and I are introducing another 
key piece of our effort to streamline the process. Our 
legislation will create an inter-agency committee that will be 
charged with eliminating duplication in planning requirements, 
simplifying the application process, and helping States and 
localities promote inter-operability of their equipment.
    Federal programs both within and outside of the new 
Department of Homeland Security provide much-needed support. 
Unfortunately, these programs often have overlapping goals, 
requirements, and regulations. Our legislation will promote 
better coordination among these programs and eliminate these 
redundant requirements.
    I do have a lengthy statement this morning that in the 
interest of time and given the unusual circumstances we find 
ourselves in, I am going to submit for the record, so that we 
can hear from our important witnesses today.
    [The prepared statement of Chairman Collins follows:]

             OPENING PREPARED STATEMENT OF CHAIRMAN COLLINS

    Today, the Governmental Affairs Committee continues its efforts to 
strengthen homeland security grant programs for States, communities, 
and first responders. I welcome our distinguished panel of State, local 
and county officials who will discuss the challenges they face as they 
work to protect our communities.
    Much of the burden for homeland security has fallen on the 
shoulders of State and local officials across America, especially our 
first responders--the firefighters, police officers and ambulance crews 
on the front lines. They are meeting this challenge and are developing 
scores of innovative strategies. Instead of facilitating these new 
ideas, however, the fragmented Federal homeland security grant programs 
and their confusing regulations are a maze in which innovation often 
gets lost.
    Hearing the experiences of the State, local and county leaders here 
today will help the Committee better understand the size and complexity 
of this maze. Listening to their ideas will help in our efforts to 
straighten it out.
    When I met with officials of Maine's Emergency Management Agency, 
including Director Art Cleaves who joins us here today, they told me 
that the rigid structure of many homeland security grant programs 
frustrates their efforts to help first responders secure communities 
across our State. I believe all States should have more flexibility to 
spend homeland security dollars where they are most needed.
    To allow flexibility in homeland security funds that have already 
been appropriated but remain unspent, I have introduced legislation 
that authorizes the Department of Homeland Security to grant waivers 
allowing States to use funds from one category, such as training, for 
another purpose, such as purchasing equipment. I am pleased to be 
joined in this effort by Senator Carper, Senator Lieberman, Senator 
Voinovich, Senator Coleman, and many others who serve on this 
Committee.
    But the current lack of flexibility is only one confusing path that 
State and local officials are forced to navigate--the lack of 
coordination among the various Federal grant programs is another. At 
our last hearing with Secretary Ridge, I announced a series of 
principles for legislation that I will introduce to provide a map that 
will better connect our front-line protectors with the funding they 
need.
    Today, I am introducing another key piece of that legislation. It 
will create an interagency committee that will be charged with 
eliminating duplication in planning requirements, simplifying the 
application process, and helping States and localities promote 
interoperability of their equipment.
    Federal programs, both within and outside the Department of 
Homeland Security, provide much-needed support to ensure a basic level 
of equipment and training among first responders. Despite having 
overlapping goals, these Federal programs lack the very coordination 
that we ask of our States and communities.
    For example, communities can access funding for interoperable 
equipment--from computers to fire hoses--through five different Federal 
programs, including the FIRE Act, COPS, the bio-terrorism program, 
FEMA's Emergency Management Performance Account, and ODP's State 
homeland security grant program. Despite the unified goals of these 
grants--to purchase interoperable eqipment--Federal agencies are under 
no requirement to coordinate the grant process. As best as I can tell, 
for the most part, they have not.
    My legislation will make sure that Federal agencies help, not 
hinder, State and local efforts to promote interoperability by 
collecting information regarding State and local initiatives and 
developing coordinated plans to provide needed technical assistance.
    Compounding the problem, within the maze of Federal programs there 
is a mountain of paperwork. State and local officials are forced to 
complete separate emergency plans for different Federal agencies and 
redundant application forms for the fragmented grant programs. Many 
States have been forced to complete more than five separate homeland 
security plans. While the information requested by each homeland 
security plan is similar, States and communities are often forced to 
reinvest the wheel from one emergency plan to the next.
    Maine, for example, at the request of the Department of Justice and 
the Centers for Disease Control, undertook a coordinated emergency 
preparedness assessment in 2000. In 2002, Maine updated its assessment 
of both its emergency management structure and its bioterrorism 
preparedness.
    Despite this comprehensive assessment, I am told that Maine will 
not be able to use this information to satisfy requirements of the 
upcoming Homeland Security Plan requested by the Office of Domestic 
Preparedness. They will be forced to complete yet another assessment 
answering many of the same questions phrased in slightly different 
ways.
    Answering the same question five different ways does nothing to 
protect against weapons of mass destruction. Filling out paperwork five 
different times takes resources that could be used to hire more first 
responders. More paperwork may make Washington feel safer, but it does 
nothing to protect Maine's cargo ports, its borders or its people.
    My legislation will promote the same kind of coordination among 
Federal agencies that we often require of our States and localities. It 
will require Federal agencies to build a clear, well-marked path that 
will lead our first responders to the funding that enables them to do 
what they do best: Prepare for and respond to emergencies.
    Today's hearing will provide the Committee with information to 
better assess whether the current structure of grant programs is 
getting the job done. The witnesses will describe the obstacles in our 
grant programs that my legislation seeks to remove.
    I look forward to hearing from all of our witnesses here today, so 
we can build a stronger and better homeland security partnership in the 
months and years ahead.

    Chairman Collins. I now will turn to the distinguished 
Ranking Member of the Committee for any comments he might wish 
to make.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Senator Collins, Madam 
Chairman. Thank you for holding these very valuable hearings on 
how we can reform and re-engineer the Federal Homeland Security 
programs to meet the needs of States, localities and the first 
responders and preventers, who protect us.
    Madam Chairman, I appreciate what I would describe as your 
characteristic leadership and nonpartisanship in focusing the 
Committee on how we can improve programs that really are vital 
to the security of the American people.
    I also want to thank our distinguished witnesses, and thank 
you for calling Mayor Kwame Kilpatrick of Detroit as one of the 
witnesses. As the presence of Congresswoman Kilpatrick attests 
to, Mayor Kilpatrick, one might say, comes to public service 
genetically, and with a proud family tradition. He has done a 
great job in the early chapters of his service as Mayor of 
Detroit, and is really a rising star among America's mayors, so 
I want to welcome both the Congresswoman and the Mayor.
    Earlier this week, our Nation was reminded that despite the 
success of the war in Iraq, the war against terrorism has not 
been won. All Americans, of course, pray for the families of 
those killed and injured by this latest act of cowardice and 
evil in Saudi Arabia. These terrorists will never relent in 
their hatred for America, and so we must never falter in our 
fight to defeat terrorism overseas, and to protect our people 
from it here at home. The attacks underscore the fact that the 
Federal Government's first responsibility under the 
Constitution is to provide for the common defense.
    Today in the face of this terrorist threat, that means more 
than building a mighty, well-equipped and well-trained Army, 
Navy, Air Force, Marines, and Coast Guard. It means 
strengthening the shared security of our 50 States and their 
counties, cities, and towns, as well as our territories. Today 
the readiness of our firefighters, police officers, and public 
health professionals is every bit as important to the national 
security as the readiness of our soldiers, sailors, and airmen. 
Homeland security cannot be done on the cheap. It takes serious 
money to employ, train, and equip top-flight first responders, 
to buy new biometric security systems, install information-
sharing networks, develop biological and chemical testing, and 
treatment capabilities, to improve security around water plants 
and airports, to revamp aging seaports and protect chemical and 
nuclear plants. These tough jobs and countless others cannot be 
accomplished with wishful thinking or a magic wand. They cannot 
be accomplished by placing an unfair share of the burden on 
State and local governments who are already facing the worst 
fiscal crisis in decades without helping our State and local 
leaders.
    And, Madam Chairman, I know you agree with me that we, in 
the Federal Government, have to do more to fulfill our 
responsibility, and that challenge we face is clearly to 
improve the way we distribute funds to the State and local 
governments. We need to make them flow faster. We need to cut 
unnecessary red tape and provide greater flexibility and make 
sure that the programs are adequately coordinated. That is why 
I am proud to be a cosponsor with you of the legislation to 
provide State and local officials with some of the ability to 
move Federal funds between accounts when it is necessary.
    I want to talk very briefly about the money that flows to 
the State because I do believe we are inadequately responding 
to State and local needs now. I am going to put my full 
statement in the record, but I have submitted a proposed budget 
increase of $16 billion for next year for homeland security, 
much of which would go straight to States and localities, and 
that is after review and consideration by State and local 
officials and others. This included $7.5 billion above the 
President's $3.5 billion for first responders, including $4 
billion in funding to ensure that our first responders could do 
something as basic as communicate with one another in a crisis, 
which we saw they were unable, tragically, to do on September 
11.
    I also believe that we, in the Federal Government, need to 
help pay salaries and overtime for local first responders, who 
are carrying out now a national responsibility. The fiscal 
crisis facing State and local governments has forced one in 
four cities, I am informed by the National League of Cities, to 
lay off police officers in the past year, which creates, of 
course, a double danger, threatening our homeland security and 
the fight against domestic crime at the same time.
    I am proud to stand with a bipartisan coalition of 
Senators, which I am pretty sure includes the Chairman, to 
support the SAFER Act, which would help communities across the 
country hire some 70,000 firefighters nationwide over the next 
7 years. We are in a war, and we should be strengthening our 
front line troops, not eroding them. So this is a very 
important hearing which underlines the fact that fixing the way 
these programs operate is critically important. But then we 
have also got to fund them adequately, and that is what it 
means today to fulfill our constitutional responsibility to 
both provide for the common defense, ensure domestic 
tranquility and build a more perfect union.
    Thank you very much.
    [The prepared statement of Senator Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thank you, Madam Chairman, and thank you for holding these very 
valuable hearings on how we can reform and reengineer Federal homeland 
security programs to meet the needs of States, localities, and the 
first responders and preventers who protect us. Madam Chairman, I 
appreciate your leadership and bi-partisanship in focusing the 
Committee on how we can improve programs that really are vital to the 
security of the American people. I also want to thank our distinguished 
witnesses for being with use today.
    Earlier this week, our Nation was reminded that, despite the 
success of the war in Iraq, the war against terrorism has not been won. 
All Americans pray for the families of those killed and injured by this 
latest act of cowardice and evil in Saudi Arabia. These terrorist will 
never relent in their hatred for America--so we must never falter in 
our flight to defeat terrorism overseas or in protecting our people 
here at home.
    The attacks only underscore the fact that one of the Federal 
Government's first responsibilities under the Constitution is to 
provide for the common defense. Today, in the face of the terrorist 
threat, that means more than building a mighty, well-equipped, and 
well-trained Army, Navy, Air Force, Marines, and Coast Guard. It means 
strengthening the shared security of our 50 States and their cities and 
towns, as well as our territories. Today, the readiness of our 
firefighters and police officers and public health professionals is 
every bit as important to our national security as the readiness of our 
soldiers, sailors, and airmen.
    And homeland security cannot be done on the cheap. It takes serious 
money. To employ, train, and equip top-flight first responders. To buy 
new biometric security systems, install information sharing networks, 
and develop biological and chemical testing and treatment capabilities. 
To improve security around water plants and airports. To revamp aging 
seaports and protect chemical and nuclear plants. These tough jobs and 
countless others can't be accomplished with wishful thinking or a magic 
wand. And they cannot be accomplished by placing an unfair share of the 
burden on State and local governments who are already facing the worst 
fiscal crises in decades.
    Madam Chairman, I am convinced that we in the Federal Government 
have to do much more to fulfill our responsibility.
    One challenge we face is clearly to improve the way we distribute 
funds to State and local governments. We need to make the funds flow 
faster, cut unnecessary red tape, provide greater flexibility, and make 
certain that programs are adequately coordinated. Madam Chairman, I am 
pleased to co-sponsor your legislation to provide State and local 
officials with some of the ability to move Federal funds between 
accounts when it is necessary. That's a smart and long-overdue reform.
    But this is more than just a red tape problem. It's also a red ink 
problem.
    Across the country, States and localities are being spread thinner 
than ever at the moment they can least afford it. Homeland security and 
healthcare costs are rising. Deficits are growing. But the economy 
isn't. I must say, it makes no sense to me that, as we lose jobs and 
struggle to meet our national needs, the Bush Administration's top 
priority is to push for billions of new tax cuts that won't improve the 
economy but will shortchange homeland security and other urgent needs.
    I have called for $16 billion in funding for homeland security in 
the next fiscal year above and beyond the President's request, much of 
which would go straight to States and localities. This includes $7.5 
billion above the President's $3.5 billion for first responders, 
including $4 billion in funding to ensure that our first responders can 
do something as basic as communicate with one another in a crisis.
    It is simply unacceptable that in most States and regions, 
including right here in the Washington, D.C. region, local police 
officers, fire fighters, paramedics, and other emergency personnel 
responding to an attack cannot talk to one another. America has some of 
the most advanced communications technology on the planet, yet 20 
months after September 11, we're still struggling with something as 
urgent and basic as this. That doesn't speak well to the 
administration's priorities.
    I also believe that we in the Federal Government need to help pay 
salaries and overtime for local first responders. The fiscal crisis 
facing State and local governments has forced one in four cities to lay 
off police officers in the past year, according to the National League 
of Cities. That is creating a double danger--threatening our homeland 
security and the fight against domestic crime at the same time.
    I am fighting to restore law enforcement grants cut by the Bush 
Administration, and am proud to stand with a bipartisan coalition of 
Senators to support the SAFER Act, which would help communities across 
the country hire some 70,000 firefighters nationwide over the next 7 
years. We are in a war. We should be strengthening our frontline 
troops, not eroding them.
    Those are just two critical priorities among many. And both 
underline the fact that fixing the way these programs operate, while 
important, is just one part of the solution. Our States and localities 
also need more support. More funding. And more leadership from the 
President on down. That's what it will take to fulfill our 
Constitutional duty to provide for the common defense and build a more 
perfect union.
    Thank you.

    Chairman Collins. Thank you, Senator Lieberman.
    I now am going to turn to our colleague, Congresswoman 
Carolyn Cheeks Kilpatrick, who represents the 15th District in 
Michigan. She is here in a dual capacity today, and we are very 
pleased to ask her to introduce one of our distinguished 
witnesses, who happens to be her son. I know the Congresswoman 
is on a tight schedule, so I am going to turn to her first so 
that she can excuse herself and return to the other body.

 TESTIMONY OF HON. CAROLYN C. KILPATRICK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Kilpatrick. Thank you, Madam Chairman, for your 
leadership and your colleagues' bipartisan spirit as we rebuild 
and secure our Nation together. Thank you very much for your 
leadership.
    And, Mr. Ranking Member, always on point. Thank you for all 
that you do as a team, as a Senate, as the upper body of our 
Congress.
    Senator Lieberman. You are on record now.
    Ms. Kilpatrick. Every now and then we say that when we want 
something and come to you to ask. [Laughter.]
    So I certainly want to acknowledge your hard work. Thank 
you, Senator Lieberman, for helping to get us on the agenda. I 
think it is most important that we, as policy makers, listen to 
people out in America, so that we actually do what is right to 
best serve them, and thank you very much.
    I additionally want to thank you for our working together. 
Last night Secretary Ridge announced $700 million in his next 
round of grants. We are very happy that the City of Detroit was 
able to get a portion of that. I want to thank everyone for our 
bipartisan effort.
    It is my distinct pleasure to present to you a gentleman 
who needs no introduction, who is certainly known by all of 
you, and a new energy, a new source in our part of the world to 
rebuild the City of Detroit and its nearly million people.
    This young man I have known before he took his first 
breath. He is a young lawyer, and former Democratic leader of 
the Michigan House of Representatives, now the Mayor of the 
City of Detroit, let me present my son, Mayor Kwame Kilpatrick.
    Chairman Collins. Thank you very much. We are going to 
start with the Governor, but I did want to give you the 
opportunity to introduce your son.
    Ms. Kilpatrick. Thank you very much.
    Chairman Collins. I would note that I think as a result of 
our last hearing with Secretary Ridge, that both Boston and 
Detroit got funding this round, so I think we have had an 
impact.
    Senator Lieberman. What about New Haven? [Laughter.]
    Chairman Collins. We are working on Portland and New Haven, 
right.
    First today, as I introduce our distinguished panel, and it 
really is a great panel that reflects the perspectives of 
State, county, city and emergency management officials. I think 
this diverse panel will give us the broad range of perspectives 
that we are looking for.
    First I want to welcome Governor Mitt Romney of 
Massachusetts, the Commonwealth of Massachusetts. His 
experience as Co-Chair of the National Governors Association 
Task Force on Homeland Security will certainly provide a 
valuable perspective to this Committee. As the former President 
and CEO of the Salt Lake Olympic Organizing Committee, he will 
also assist our Committee in learning about what is perhaps the 
most effective Federal, State and local homeland security 
effort in recent memory.
    We have already had the Mayor of Detroit, Kwame Kilpatrick, 
introduced to us by his distinguished mother, and we are very 
much looking forward to hearing the perspective of a mayor of a 
major city. We thank you for being here too. I know that you 
have done a lot of work on the issue of homeland security and 
we look forward to hearing your testimony.
    It is always a pleasure for me to extend a warm welcome to 
Art Cleaves, who is the Director of Maine's Emergency 
Management Agency. One of my colleagues on this Committee has 
commented that somehow I manage to have a witness from the 
State of Maine at virtually every hearing, but that is because 
the State of Maine has so much to offer to the rest of the 
Nation.
    I have relied on Art's advice on numerous homeland security 
issues. In fact, it was he who first pointed out to me the lack 
of flexibility in States being able to transfer funds from one 
category to another. He has been down there on the front lines 
and really understands the nuts and bolts issues that are 
facing officials at the State, local and county level.
    Finally, since I was in Minnesota just Monday with our 
colleague, Norm Coleman, for a field hearing on homeland 
security, it is a great pleasure to introduce Mark Stenglein, 
who is a Commissioner from Hennepin County, Minnesota. Did I 
pronounce that correctly? I learned how when I was out in 
Minnesota.
    I am very happy today that we will hear from a county 
official. A lot of times we focus on the local and State level, 
and do not pay enough attention to the counties, so we 
appreciate having your perspective as well.
    Governor, we are going to start with you, and again, thank 
you for your effort to be here today.

   TESTIMONY OF THE HON. MITT ROMNEY,\1\ GOVERNOR, STATE OF 
MASSACHUSETTS, ON BEHALF OF THE NATIONAL GOVERNORS' ASSOCIATION

    Governor Romney. Thank you so much, Madam Chairwoman. It is 
good to be here with you, Senator Lieberman, and Senator Levin. 
I feel like it is coming home for me because I have my 
neighboring States to the north and south represented, and the 
State of my birth also represented, so I am very comfortable 
here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Romney appears in the 
Appendix on page 45.
---------------------------------------------------------------------------
    Let me begin by saying thank you for the work which you are 
doing in crafting legislation, filing legislation, which brings 
as the Chairwoman has indicated, greater flexibility to the 
process of the grant system in our homeland security effort, 
and also a streamlining of the grant process which is being 
provided by the Federal Government. That flexibility and 
streamlining I believe is key.
    As you have noted, I come on behalf of the National 
Governors Association and my Co-Chair, Governor Ruth Ann Minner 
of Delaware. We have been working together over the past 
several weeks as we have taken on this new responsibility, and 
look forward to working with you.
    I think this morning, rather than reading through my 
testimony, I might ask that you include my written testimony in 
the record, and I might summarize for you some thoughts that 
are taken from that.
    First, I think there are two key points that I would like 
to provide, and that is that in our view, investing resources 
in homeland security based upon a comprehensive and integrated 
plan is essential. Second, perhaps drawing on the comment that 
was made by Senator Lieberman with regards to a term I had not 
heard before, but not just first responders, but preventers as 
well, maximizing our investment in the prevention of terrorist 
acts is also something which I think should be a high priority 
in thinking about how we allocate our resources. We think about 
prevention. We think about intelligence, gathering intelligence 
communication. We think about as well hardening the various 
targets that might exist in a locality or in a State, and we 
also think about operational security.
    So I would like to focus a couple of thoughts with regards 
to those two issues, maximizing the efforts going to 
prevention, as well as investing our resources based upon a 
comprehensive and unified plan.
    I had the experience, Madam Chairwoman, as you indicated, 
to have spent some time helping to organize the Olympic Winter 
games. I recognize that by virtue of doing so, that security 
and terrorist issues were going to become a major part of that 
task. I had not recognized how large a part of that task they 
would be. More than 15 percent of the budget of the Olympic 
Games was spent on security, some $300 million, actually more 
than that, was associated with our security program at the 
Olympic Winter Games. That spending was overwhelmingly directed 
based upon a comprehensive plan. The planning process literally 
took years. In checking this morning with my colleague, our 
estimate was that some 5 years were spent by law enforcement 
professionals putting together a comprehensive plan to secure a 
number of venues, not even an entire city or State, but just a 
number of venues, against terrorist attack. Of course, the 
Olympics had been the target of attacks in the past. And by 
applying those resources against a comprehensive plan, we were 
able to, I believe, provide a much higher degree of security 
from potential terrorist acts than if we had just sent money 
out to the various localities, communities, States, and 
counties that were associated with the Olympic Games. The 
alternative to allocating resources by plan is to provide 
resources by population or by geographic territory or something 
of that nature.
    I am just fearful that the differences between municipal 
needs, municipal responsibilities are so dramatic that if we 
allocate money based on population or based on geography, as 
opposed to being allocated based on a formulated plan, that we 
will severely restrict our capability to provide for the 
security of our citizens.
    I look at my own State, and just thought this morning I 
have a large number of cities and towns in Massachusetts. We 
have 351 cities and towns in a relatively geographically small 
State, and they are very different. Even though the populations 
for several might seem the same, the needs from a security and 
terrorist prevention effort are dramatically different. One of 
our towns--I will take three that are about the same size--one 
has a nuclear power plant in it. Obviously, that presents a 
degree of difficulty that is different from another that is 
just a simple residential community. And another, which houses 
two LNG tanks and a tank farm for jet fuel and other sources of 
fuel. So the needs of those different communities are quite 
dramatically different. At the same time, one might say: Gee, 
given all of these differences and needs, perhaps the Federal 
Government could allocate money, not to States, but rather 
allocate directly to these different municipalities and make 
its own assessment of the needs of each one of these different 
cities and towns. But with 351 different cities and towns, the 
process of literally scoring on the Federal basis, not just the 
differences between States, but the differences between all the 
cities and towns, would become an overwhelming responsibility. 
I believe therefore it is critical for us to allocate the 
funding to the States and task the States with the 
responsibility of not only creating a unified plan, but making 
sure that it involves the participation of all those who have 
stakes in the outcome of that effort.
    Let me also note that with regards to this planning 
process, that my experience with the Olympics is that it is 
only effective if it involves the widest range of people who 
are helping prepare it. Yes, we have professionals who knew 
something about planning, but our effort was led by Federal 
participation, State involvement and local participation as 
well. Working together, a plan was created that had a high 
degree of credibility and support across the widest range of 
participation.
    Let me also turn for just a moment to the topic of 
prevention, and making sure that as we think about allocating 
our resources, that prevention is very high on our list. 
Thinking about response and first responders is of course 
critical. Senator Lieberman's comments about thinking about 
preventers, I think, is just as critical. When we think about 
the funding that we allocated through our Olympic experience, 
the overwhelming majority was allocated towards the effort of 
assuring prevention of a terrorist act of one kind or another.
    The heart of that is intelligence. In our case the FBI led 
the State and local efforts with regards to intelligence. State 
and local authorities were given primary responsibility for 
gathering information and gathering data, but surveillance and 
analysis was held by the FBI. As they managed that process and 
worked with us, they were able to assign responsibility so that 
we didn't have duplication across the three levels of 
government or four levels of government, including our 
counties, and at the same time were making sure that the party 
responsible for the particular action had the highest degree of 
expertise in carrying out that function. I note the FBI played 
a superb role in managing our intelligence effort at the games 
and continues to play a very critical role in the work which we 
do now. As a governor, I could not be more pleased than I am 
with the work of the FBI in helping coordinate the efforts in 
planning and the intelligence work which goes on to protect our 
Commonwealth.
    Let me note second with regards to my experience there, 
that training played a key role in the prevention programs, 
training to help, if you will, first preventers know how to 
gather intelligence and what they were looking for, perhaps 
with the license of a person who they stopped on the highway, 
and looking at that license in a way that would assess 
potential terrorist implications, understanding how to 
communicate with one another, how to survey potential threats.
    Let me go from training to the area of hardening sites and 
operational security. In that regard the Secret Service played 
the key role. It led in the effort of looking at each one of 
our venues and aspects of our community and found ways to 
secure those venues, to harden those venues, if you will. Their 
expertise in providing to us templates, suggesting distances 
for barricades, fencing options, gating options and so forth, 
were absolutely essential. If we had instead relied upon our 
expertise as Olympic planners or local law enforcement, we 
would not have begun to have the kind of capability that the 
Secret Service provided to us. They were again key to our being 
able to create the kinds of robust and complete plans that we 
were able to put together.
    I would therefore continue to urge that our focus remain on 
prevention, and that we draw in Federal, State and local 
authorities in creating these prevention plans, that we also 
allocate resources largely based upon those plans, and that we 
assure that the dollars are going against the targets and the 
efforts that are integral parts of the plan which have been 
created on this local, State and Federal level.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you very much, Governor.
    I am now going to ask my colleague, Senator Levin, to call 
on the mayor from the largest city in--I think Detroit is the 
largest city in Michigan.
    Senator Levin. By far.
    Chairman Collins. By far. While I go vote, and I will 
return shortly.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. It is a joy to recognize my mayor, and 
recognize his mother. We talk about the mayor's energy. We, who 
have served in the Congress, who have served with you, know 
where he gets a great deal of that energy and vision from. So, 
welcome to you, Congresswoman Kilpatrick.
    Mayor Kilpatrick.
    [The prepared statement of Senator Levin follows:]

                  PREPARED STATEMENT OF SENATOR LEVIN

    I am pleased to welcome to the hearing today the Mayor of Detroit, 
Kwame Kilpatrick, and I thank the leadership of this Committee for 
inviting him and for holding this hearing. Prior to my Senate days, I 
was a member of the Detroit City Council so I know firsthand how hard 
it can be to deal with the Federal bureaucracy; to get the information 
needed to apply for funds; and then to be denied the funds you asked 
for when you need them.
    In my travels around Michigan this year, a number of local 
officials have described difficulties in dealing with the Department of 
Homeland Security (DHS). Recently, the Mayor of Adrian, Michigan, 
Samuel Rye, spoke of problems he was having both in reaching and 
obtaining information from the DHS. At a May 9th meeting of city and 
town managers in the Upper Peninsula in Michigan, the manager of Sault 
Ste. Marie, Spencer Nebel, asked which of those in attendance had 
actually received homeland security funds. The answer he got was no 
one, despite the Upper Peninsula's great need for communications 
equipment. As a former city official, I understand the frustrations of 
these local officials, and I share with them the frustration that the 
DHS isn't making it any easier for them.
    For 6 months now, I and others have been urging DHS to set up an 
800 number for grant information as well as a one-stop grant process 
for State and local officials. There is still no 800 number and no one-
stop grant process. At the May 1 hearing, Secretary Ridge admitted that 
the DHS Office for State and Local Coordination could and should, but 
still does not, provide local officials with a single point of entry 
for obtaining DHS grant information. That central clearinghouse for 
grant information needs to happen. In addition to a central grant 
office, the Michigan Homeland Security Director, Col. Mike McDaniel, 
wants to hold a series of forums around the State of Michigan to 
educate local fire and police departments on available grants. This is 
another area where the DHS Office for State and Local Government 
Coordination could provide assistance, and I hope it will join in this 
effort.
    A related issue is making sure that, once allocated, Federal 
dollars flow quickly to the States. In the FY 2003 budget, Michigan is 
supposed to receive $42 million overall and another $15 million from 
the 2003 Emergency Supplemental Appropriations bill, but so far, 8 
months into fiscal year 2003, Michigan has received only $15 million. 
Those funds need to get where they are supposed to go.
    Additional frustration relates to the funding formula now used in 
allocating the basic Office of Domestic Preparedness (ODP) grants 
issued by DHS. The current formula does not distribute money to 
localities with the greatest needs. Instead, the ODP grants are 
distributed under a formula that provides a mandatory minimum amount of 
funds for every State and, only after that minimum is met, provides 
additional funds to States facing the greatest terrorist threats. The 
result is that the formula disproportionately funds smaller States at a 
higher per capita rate than the larger States. For example, why should 
Wyoming receive more funding per capita than New York for first 
responders? Experts have indicated that this funding formula is flawed, 
and Secretary Ridge has said that he is working on altering it. 
Hopefully, he will act soon and prior to the distribution of 2004 
funds.
    And then there are the new special DHS grants to high risk urban 
areas. These grants are also funded out of ODP, but they are not 
distributed according to a fixed formula. Instead, they are awarded at 
the discretion of the Secretary based, in part, on classified 
information. The first round of these grants doesn't add up in terms of 
threats. Detroit is the largest U.S. border crossing for trade with 
Canada or Mexico. In fact, Canada is our largest trading partner with 
over $1 billion worth of goods and services crossing the border every 
day. More than 40 percent of that trade passes through the Michigan-
Ontario border. Detroit has already been the site of several anti-
terrorism probes, and it is a microcosm of all the complex issues that 
require a balancing of civil liberties and security needs. Detroit 
produced in April 2002, a Homeland Security Strategy that laid out the 
city's vulnerabilities, provided a 10-point action pan, and won praise 
from Secretary Ridge as a model for other cities.
    But a good action plan is not enough to get the job done. Detroit 
needs resources if it is to protect its population. Yet, much to the 
dismay of Mayor Kilpatrick and myself, when the DHS issued the first 
round of grants to protect high risk urban areas, Detroit wasn't on the 
list. That exclusion is difficult to understand in light of Detroit's 
vulnerabilities and concrete plan to move forward. At a Committee 
hearing on May 1, Secretary Ridge said that DHS had decided to disperse 
the high-threat urban area grants in larger sums to fewer cities 
instead of smaller amounts to more cities, and that more at-risk cities 
would be getting these funds. Governor Ridge offered to share the 
classified threat analysis information used for the grants, and I look 
forward to reviewing it.
    On top of all this, there is another problem that is also briefly 
referenced in the Mayor's testimony--the fact that the Administration's 
2004 budget request is actually providing lower overall amounts of 
funding to first responders than last year. Let's take a look at the 
big first responder picture:

                          First Responder Funds
------------------------------------------------------------------------
                                                          FY 04 Senate
            Program               FY 03    FY 04 Admin       Budget
                                             Request       Resolution
------------------------------------------------------------------------
ODP Office of Domestic              3,289        3,558             3,558
 Preparedness (DHS)...........
Fire Grant Program (DHS)......        745            0                 0
                               -----------------------------------------
    Total.....................      4,034        3,558             3,558
------------------------------------------------------------------------


    The primary first responder programs are ODP and the Fire Grant 
Program that funds local fire departments. When you add the totals, the 
result is a 1-year funding decrease of $476 million. When I asked 
Secretary Ridge about this at the May 1 hearing, he admitted that there 
was an overall decrease.
    On top of that decrease, the Administration is proposing huge cuts 
to our tried and true local law enforcement programs. Three grant 
programs for local police show what's happening: In 2003, the COPS 
program--the same program about which Attorney General John Ashcroft, 
said ``Since law enforcement agencies began partnering with citizens 
through community policing, we've seen significant drops in crime 
rates''--was funded at $929 million, but in 2004 the Administration 
requested just $164 million for this program, an 82 percent decrease. 
In 2003, the Byrne Grants for first responders were funded at $651 
million, but in 2004 the Administration requested zero; and the Local 
Law Enforcement Block Grant Program was funded at $400 million last 
year, but in 2004 the Administration requested zero dollars. The 
question is how and why the Administration is requesting less funding 
for first responders at a time when the same Administration insists 
that communities like Detroit gear up to defend the homeland.
    All today and all this week, the Senate is voting on proposals for 
billions of dollars in tax cuts, most of which go to the upper 10 
percent of citizens. To pay for its tax program, the Administration has 
proposed to cut government funding, including for much needed programs 
like homeland security. It's a mistake. To prevent or react to a 
terrorist incident, our government personnel need resources. Our first 
responders need radios that can communicate with each other. Our 
hospitals need medical training, supplies, and data systems to track 
injuries. Our cities need well-thought out plans to protect citizens. 
None of that can happen if homeland security needs are shortchanged to 
pay for tax cuts.
    Local officials are on the front lines of homeland security. 
Recently, I took part in a Detroit town hall meeting that examined the 
complexities involved with homeland security issues, and at which Mayor 
Kilpatrick greatly enhanced the dialogue between the community and its 
elected officials about what needs to be done. The Mayor showed not 
only his knowledge of the city and the careful balancing of interests 
that need to take place, but also a determination to meet the homeland 
security challenges facing his city. The experiences of local officials 
like Mayor Kilpatrick in working with the new DHS can help show us the 
gaps in the programs and begin to get them working. I look forward to 
hearing about his experiences on the front lines.

 TESTIMONY OF THE HON. KWAME M. KILPATRICK,\1\ MAYOR, CITY OF 
                       DETROIT, MICHIGAN

    Mr. Kilpatrick. Thank you. Madam Chairman, thank you very 
much and thank you Ranking Member Lieberman, and Senator Levin, 
my main man. People talked about feeling at home--and I heard 
the Governor say that he feels at home here. There could not be 
anyone who feels more at home than me because my mommy is here. 
[Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kilpatrick appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    But I do want to talk about homeland security from two 
different perspectives, one as the Mayor of the City of 
Detroit, and the other as a member of the U.S. Conference of 
Mayors Advisory Board and Co-Chair, along with Betty Flores of 
Laredo, Texas, of the Cities and Borders Task Force.
    Detroit is the largest city in Michigan. I want to give a 
couple specifics about Detroit before I go into the homeland 
security issue. The city is on a major waterway and comprises 
40 percent of the border between U.S. and Canada. It is the 
global headquarters of the largest corporation in the world 
(General Motors sits right on our international waterway) and 
the other two large auto makers also have homes there, Ford and 
Daimler Chrysler. We have one of the largest convention 
facilities in the country and several professional sports 
arenas right in the downtown core area. We have a regional 
airport to which we just added a $1.4 billion new terminal, and 
Detroit faces some serious security concerns with all of these.
    Some believe that to attack domestic issues and domestic 
problems, we need to have a one-size-fits-all approach. I want 
to wholeheartedly disagree with that view. I believe that we 
need to look at the uniqueness of each city and really target 
that uniqueness and figure out how we can fund the things that 
cities need. While LA may need one thing or Chicago may need 
one thing; Detroit may need another. One city may need HAZMAT 
equipment or gas masks, while the City of Detroit may need a 
technology foundation or telecommunications dollars.
    I believe that Detroit was the first city in the Nation to 
deliver a comprehensive strategic homeland security package and 
plan to then-Governor Ridge, now Secretary Ridge. And since the 
release of that strategy, we have worked to implement each one 
of the 10-point items we identified as essential to protecting 
the citizens of Detroit.
    One was to appoint a full-time local Homeland Security 
director. We have done that, and now he is partnered with all 
of our agencies inside the City of Detroit, and has developed a 
full homeland security plan. Our focus and mission in the City 
of Detroit is to be able to respond to every day activities in 
public service, so we are able to respond to an emergency, a 
chemical or biological weapon threat, or weapons of mass 
destruction threat. We believe that our health departments, for 
instance, need to be able to counsel people for drug 
intervention as easily as they need to be able to counsel 
people in the event of a large emergency. So, we need to make 
sure that those systems actually work.
    We have also begun to do incredible work on our radio 
systems interoperability, and we do not believe that should be 
done in a vacuum. We hear often of counties wanting to do their 
own system or States wanting to do their own systems. We 
believe now, more than ever, that efforts need to be 
coordinated so all of us are able to talk to one another in the 
event of an emergency. I applaud the efforts of some counties 
taking the lead and some States taking a lead in those efforts. 
It has to be done in the era in which we are living so all of 
us are able to talk to one another. Detroit has done a lot of 
great work in upgrading our system and we will be fully 
operable by the end of this year.
    Detroit is a very diverse community, as many of you know. 
We have the largest Arab population anywhere outside of the 
Middle East. We have the largest Iraqi population anywhere 
outside of the Middle East. I believe that Detroit is a 
microcosm of what people can do when we do communicate. Many of 
the people in this Nation did not even know that because we did 
not have many of those large problems that people saw across 
the country. But we did have the sweeps and we did have the 
opportunity to share information among our local police 
officers, our local firefighters, all the Federal agencies that 
were working inside the City of Detroit, and the Iraqi, Arab 
and Caribbean communities. We believe that is something that we 
can learn from.
    Additionally, we established a citizens corps in Detroit, 
which is a volunteer program, and we asked people to submit 
their names, numbers, addresses, so that they can volunteer in 
the event of emergencies. Thousands of people have called and 
registered for this. We held a town hall on March 24, 2003. 
More than a thousand people came to that meeting. We wanted to 
show them the homeland security outfits of our police 
department. Senator Levin and Senator Stabenow both 
participated in that town hall meeting. It was an excellent 
opportunity to alleviate some of the fears that were in our 
community. We conducted a poll after the town hall meeting, and 
Detroiters felt more comfortable. A thousand people came to the 
facility at the State fairgrounds, and many more saw it live on 
television and felt so much better after that opportunity.
    From a national perspective, I agree with many things that 
the governor said in his comments, but this is one place where 
governors and mayors actually differ in how homeland security 
is funded. I wholeheartedly agree that cities need to sit at 
the table with their State Governments and figure out how we 
coordinate homeland security funding. But when an emergency 
happens, there will be a local police officer and a local 
firefighter, who will be the first in and the last to leave. I 
want to make sure that point is strongly made and emphasized. 
The dollars need to follow where the activity is. We can no 
longer politicize this issue, especially on a State level, and 
if this has to have some legislative debate, then it becomes 
partisan, and homeland security dollars cannot become political 
and partisan, and often that is what happens in State capitals 
around this country. On behalf of the U.S. Conference of 
Mayors, we are advocating that uniqueness is looked at on the 
local level and in funding in that manner.
    So in closing--and this is a long closing--I am not a 
Baptist preacher, but I do have long closings. The City of 
Detroit, as I mentioned before, we are on an international 
waterway and local police officers have been protecting that 
border for a long time. As a matter of fact, between September 
11, 2001 and December 31, 2001 we spent nearly $3 million in 
overtime reassigning officers. In 2002, we spent just over $10 
million with the local police officers reassigned to patrol our 
borders and to deliver national security to all of us in the 
United States of America. With the efforts of Senator Levin, 
Senator Stabenow and the outstanding leadership of 
Congresswoman Kilpatrick, through the Omnibus Appropriations 
Bill, we were able to receive some funding to be reimbursed for 
that activity. But, we are constantly running up those bills as 
well to continue to provide that security.
    We need help from the Federal Government. Obviously, any 
decision made at the border has a direct impact on the economic 
well being of my city and this country. In Detroit we are the 
home of just-in-time delivery for the manufacturing industry. 
Many of us remember after September 11 the two- and three-mile 
backups at the border that essentially stopped the American 
economy. We need your help. And that is why State and local 
governments need to be included in planning future border 
security efforts.
    I want to stress once again, as I finish my remarks, that 
local police officers, local fire departments, will be the 
first to arrive and the last to leave.
    I thank you for this enormous opportunity to speak directly 
to you today, and I look forward to working with the Chairman 
and Ranking Member of this Committee, Senator Levin, and all of 
the distinguished Members of the Governmental Affairs 
Committee. Thank you.
    Senator Lieberman [presiding.] Thank you very much, Mayor 
Kilpatrick. I am delighted that you could be here. I said some 
great things about you before you came in. Somebody said to me, 
in Washington that you know you are doing well when people say 
great things about you when you are not in the room. 
[Laughter.]
    And you are doing very well, and your testimony has been 
very helpful today, and I look forward to the question period.
    Mr. Cleaves, it is an honor to call on you and welcome your 
testimony now.

 TESTIMONY OF ARTHUR W. CLEAVES,\1\ DIRECTOR, MAINE EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Cleaves. Thank you, Senator Lieberman. Senator Levin, 
and distinguished Members of the Governmental Affairs 
Committee, I am Art Cleaves, Director of Maine Emergency 
Management Agency. Our office is also the Homeland Security 
Coordination Center for the State of Maine.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cleaves appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    In addition, our office administers all FEMA grants in the 
State and all Office of Domestic Preparedness grants beginning 
with the program's inception under the Department of Justice.
    Maine is largely a rural State and may be thought of less 
at risk from terrorist activities than the more urban areas. 
However, our long coastlines and international border have 
unique vulnerabilities. We have a great responsibility in the 
State for ensuring that our citizens remain safe. We have a 
unique opportunity and a responsibility that we feel keenly 
about, to act as a sentinel for our neighbors to the South and 
to the West. We will never forget that two of the September 11 
hijackers began their deadly journey in our State.
    Since before September 11 those of us in the profession of 
emergency management have been working closely with the Federal 
Government on fielding terrorism preparedness and weapons of 
mass destruction preparedness programs. On September 11, 
however, awareness was tragically awakened of the critical need 
of these programs. Our office, as I am sure every Member of 
Congress, was overwhelmed with requests for funds to support 
planning, training, equipment, and personnel costs.
    In addition, there were requests to reimburse States and 
communities for what were perceived as national security costs, 
dollars expended by the States and the local governments to 
help respond to a national threat.
    I would like to take this opportunity to congratulate and 
thank the Congress for the passage of the 2002 State Homeland 
Security Grant Program Part II. This is a giant step forward, 
not just the resources it provides the States, but also for the 
flexibility in the implementation it gives us. In addition to 
our ability to reimburse cities and towns for actions taken 
during Operation Liberty Shield and in future events is 
something I think we have collectively wanted to do since 
September 11. It will be with great pleasure that Governor 
Baldacci is able to distribute these funds to the local 
communities.
    With the package just fielded, we are afforded flexibility 
in the amount of the award that can be used for equipment, 
planning, training, exercise, or administration. We are also 
permitted to use the training dollars, if needed, to reimburse 
overtime personnel costs required for successful training and 
exercise. This flexibility is welcome beyond words, and for 
more than what it will do in allowing us to achieve 
preparedness goals. It demonstrates how responsive this 
Committee and the Congress, as a whole, has been to the 
feedback on the effectiveness of these grant programs. It bodes 
well for our collective ability to be able to serve our 
citizens well into the future. We must always be willing to 
look at what is working and then fix what is not working.
    We also appreciate and support S. 838, introduced by 
Senator Collins, which creates a process whereby the States can 
request to reallocate funds received pursuant to appropriations 
of the State Homeland Security Grant Program among all four 
categories of equipment, training, exercise, and planning. This 
will give us the opportunity for flexibility in all the grants 
we are currently administering, and in Maine's case it will 
allow us to use all of our allocation and not have to return a 
portion that will otherwise remain unspent.
    I am totally supportive of the guidelines that dictate 80 
percent pass through of the ODP grant funds to local 
communities. It is after all the local communities who bear the 
brunt of that first response. We have not adequately addressed 
their needs, and we must do so. But without reducing direct aid 
to the communities, I think in the future we will need to look 
at those cases where supporting programs at the State level 
will benefit communities in an efficient and cost effective 
manner. Let me reiterate. I do not support sacrificing any 
direct pass through programs in order to increase State 
capability, but there are times when increasing these 
capabilities achieves a direct benefit for the local 
communities. As we look at the structure of future fielding 
possibilities, I think we need to be able to identify and 
support those opportunities.
    Please allow me to address a couple of other concerns we 
have, one being the efficient coordination or grants from the 
Federal level. In Maine, when we first began to administer the 
FEMA's Terrorism Consequence Management Planning Assistance, 
TCMPA, that is 100 percent terrorism funding program that 
started before September 11, and the Department of Justice, now 
the ODP funds, it was immediately obvious that we needed to 
supply an in-state coordination that was not present within the 
Federal Government.
    We put together an interagency team of county and local 
members to develop our homeland security strategy and to guide 
the grant-making process.
    Today, a number of funding streams are gathered at the 
mantel of the Department of Homeland Security. But there are 
others that are not. There are funds available from HHS, CDC, 
EPA, Department of Transportation, and probably other Federal 
sources of which I am not yet aware. We could create 50 full-
time jobs across the States, tracking Federal homeland security 
grants. How much more efficient it would be if the Federal 
Government agencies could better coordinate their grant 
opportunities, ensure that there was no redundancy in these 
precious resources, and even support each other in publicizing 
these opportunities.
    I think we are doing a good job in Maine coordinating our 
State agencies and using the grants to complement each other, 
not duplicate each other's efforts. And I could stop being 
concerned right now. But as a taxpayer, I think we could do a 
better job at coordinating that can be done from the top. I am 
not advocating that all funding opportunities be relocated to 
the Department of Homeland Security. It is absolutely 
appropriate that Federal agencies with particular missions work 
directly with their State. But the Department of Homeland 
Security and other Federal departments can use the bully pulpit 
afforded them as sources of funding to encourage States to 
coordinate all efforts of all State departments involved in 
homeland security. The best bang for the buck can be achieved 
by building capability for homeland security incidents on the 
backbone of all-hazard emergency management capability, which 
has as a basic tenet cooperation and coordination among all 
agencies.
    Last, I would like to address the grant application process 
itself. My agency administers the Emergency Management 
Performance Grant, EMPG, and the Office of Domestic 
Preparedness grants. We find that both models have merits. The 
EMPG model is one that we find extremely flexible and easy to 
work with. Annually, we submit a strategic plan containing 
long-term goals and objectives and broad strategies that we use 
to achieve these goals. We also submit detailed work plans we 
use to track annual activities, and FEMA approves that plan, as 
well as the budget we submit. We report quarterly on our 
spending activities and the achievements at the strategy level. 
With our final report, we compare our accomplishments with our 
goals of the year. We identify our significant accomplishments 
and those areas that remain to have more work done. We are held 
accountable both fiscally and programmatically, but we are 
allowed flexibility in the design of the overall program. And 
that is for the whole State.
    We use a similar process to manage EMPG grants at the 
county level, and we monitor their progress against their 
goals. This is the model we would like to see all grants 
follow. Indeed, we could envision an EMPG program platform 
expanded not only to include matching funds that would help us 
build our base emergency management capability, but also the 
100-percent grants made available to address homeland security.
    With the Department of Homeland Security now in place, we 
have a great opportunity to improve program coordination. With 
the all-hazards approach that has been the foundation of 
emergency management and the existing programs in the mix, we 
have the people and experience in administering grants 
effectively and efficiently and the infrastructure to support 
them. The relationship is already in place that connect 
Federal, State, and local governments in preparedness, 
response, recovery, and mitigation, and that is working every 
single day. As the Department continues to evolve, we have a 
solid base to build on.
    Senator Collins, I thank you very much for this opportunity 
to testify today.
    Senator Collins [presiding.] Thank you very much, Mr. 
Cleaves.
    First, let me apologize to the mayor for missing his oral 
testimony, but I did read your written testimony and I look 
forward to asking you questions. As you can see, we are doing a 
tag team here to try to keep the hearing going. So we are 
taking turns voting and chairing.
    Commissioner, we look forward to hearing your statement.

   TESTIMONY OF MARK J. STENGLEIN,\1\ COMMISSIONER, BOARD OF 
           COMMISSIONERS, HENNEPIN COUNTY, MINNESOTA

    Mr. Stenglein. Well, thank you. Thank you, Chairman 
Collins. And I am very far from home, but everybody has made me 
feel quite at home. The table I am used to sitting around has a 
7-, 5-, and 4-year-old, so it is quite a different atmosphere 
here. But I bring you greetings from the State of Minnesota, 
the Upper Midwest.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stenglein appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    I would also like to thank Senator Lieberman and the two 
Senators from my State, Senator Dayton and Senator Coleman, and 
Members of the Committee where they may be.
    My name is Mark Stenglein, and I am a county commissioner 
from Hennepin County in Minnesota. Hennepin County is the most 
populous county in Minnesota with over 1.1 million residents. 
Hennepin County is charged with helping to maintain the health, 
safety, and welfare of one-quarter of the State's population, 
and I am honored to have the opportunity to testify before you 
today. I will also note that the National Association of 
Counties has submitted testimony for the Congressional Record 
as well. I would also like to personally thank Senator Coleman 
for his invitation to testify this morning.
    Since the attacks of September 11, Hennepin County has been 
preparing for the day that everyone hopes will never come 
again. We have begun the difficult task of assessing our 
current preparedness planning and assets. We have continued to 
seek cooperation and collaboration with other units of 
government. And, finally, we have sought the resources 
necessary to achieve our goals.
    First, I would like to give you a brief summary of where we 
currently stand in our assessment and planning stages.
    Hennepin County has assessed our vulnerabilities at all 
levels. We have upgraded our emergency preparedness plans, 
reassessed our evacuation procedures for all county buildings. 
We have made structural improvements to ``target harden'' our 
facilities and infrastructure and added additional security 
measures at our citizen service centers to enhance the safety 
of our employees and the public.
    Hennepin County is the keeper of records for millions of 
Minnesotans. We issue everything from birth certificates to 
death certificates, passports, and driver's licenses. We must 
provide access for our citizens so they may conduct their 
business in a convenient and safe manner. County facilities 
that were once designed for easy public access must now be 
reconfigured. Security measures must be retrofitted to ensure 
safety for our employees and citizens--all while keeping the 
delicate balance between safety and service.
    Another area of intense focus is our hospital. Hennepin 
County operates the Hennepin County Medical Center, known as 
HCMC. HCMC is the only public hospital in the metropolitan 
region and the only hospital in the downtown core with a Level 
I trauma facility. When it comes to serving the citizens in a 
time of crisis, we are it. It is a tremendous responsibility 
that we take very seriously. That is why HCMC has been leading 
the smallpox vaccination program for area hospitals and is also 
the lead agency for biological and chemical decontamination 
units. We have also developed a mutual aid compact involving 22 
hospitals in the metropolitan region. HCMC is also a global 
admitting hospital designated by the CDC.
    We have begun planning for continuity of government and the 
continuation of operations in the event of a tragedy. The 
continuity of government and the continuation of operations is 
essential. Clearly identified roles and responsibilities allow 
our first responders, emergency coordinators, and 
administrators to carry out emergency plans with precision and 
without hesitation.
    Hennepin County has not focused all of its efforts 
internally. We have also sought to partner with the Federal 
Government, the State of Minnesota, neighboring counties, and 
municipalities. These partnerships define where we are headed 
in preparing for an emergency. One example of this cooperation 
was a joint venture with the City of Minneapolis on an 
emergency preparedness training program, sponsored by FEMA, at 
Mount Weather, Virginia. City and county leaders, including 
myself, along with emergency personnel at all levels, conducted 
training operations under differing scenarios. This hands-on 
approach to learning highlighted our strengths and outlined our 
weaknesses, providing us with a blueprint for improvement.
    Our cooperation does not end there. The Hennepin County 
Sheriff continually meets with city police chiefs, State and 
Federal law enforcement officials, emergency management 
planners, and other security first responders to share 
information. Firefighters meet with EMS personnel to discuss 
tactics and scenarios to ensure that emergency plans are 
developed consistent within all disciplines.
    Another example of cooperation is the county-wide advisory 
group formed to recommend and prioritize how to best use scarce 
economic resources. Representatives from police, fire, EMS, 
sheriff's office, public health departments, and the hospital 
meet to provide information and insight related to emergency 
preparedness planning. Each representative knows how her or his 
respective agency needs to respond in a moment of crisis. The 
challenges to respond in a crisis increase under the threat of 
terrorism or biological and chemical weapons of mass 
destruction.
    Hennepin County has also partnered with local entities such 
as the Minneapolis Airports Commission and the Metropolitan 
Council on the preliminary design study of a secure cargo 
facility near our international airport located within our 
county. We believe that a consolidated regional distribution 
center for air cargo will streamline the security screening 
process of the thousands of tons of cargo leaving Hennepin 
County and Minnesota each year. This regional distribution 
center will also impact the local economy and maintain the 
balance between security and the economic impacts of delay.
    Working together, we are able to share ideas and concerns. 
We have worked hard to identify and prioritize equipment and 
training needs. Most importantly, we have moved from an 
independent approach to a shared, regionally-centered approach. 
We are breaking down many of the old barriers to cooperation. 
We have made tremendous progress in uniting behind best 
practices and ensuring that we are doing all we can to protect 
and serve our residents.
    Last, I am going to talk about the kinds of help we need in 
order to be successful.
    We need money.
    Should I say that again? We need money.
    We lack the training and equipment to prepare or respond to 
a radiological attack. A ``dirty bomb'' would have a 
devastating impact. We agree with the Hennepin County Sheriff 
that the concept of a regional law enforcement response team 
may be necessary to effectively operate in hazardous or 
contaminated areas. Resources are required to coordinate such 
an endeavor.
    More funding is needed for specialized equipment. There is 
virtually no capability in Hennepin County or the State of 
Minnesota for heavy urban search and rescue. It would take 
nearly 48 to 72 hours to call in such equipment. By then it may 
be too late.
    We require funding so we can prepare, so we can plan, so we 
can train, so we can test ourselves, so we can assess and 
reassess, and so we can repeat the process until we have got it 
right.
    Thus far, Hennepin County has received supplemental funding 
for the county and local communities to update plans for 
terrorism. We are currently utilizing a grant from the 
Department of Justice for first responder equipment. Resources 
have been slow to reach local governments, and we are just now 
in the process of applying for the 2003 Homeland Security grant 
intended for equipment and exercises.
    Hennepin County strongly supports the current formula of 
the Homeland Security Department, Office of Domestic 
Preparedness grant program. That formula requires 80 percent of 
the money awarded to States be directed to local units of 
government.
    Hennepin County also believes that the Emergency Management 
Performance Grant, EMPG, program funding needs to be increased. 
This is the program that facilitates and coordinates emergency 
planning and exercises. EMPG funding is essential for all local 
emergency planning programs. Local planners need the 
flexibility offered through the EMPG program.
    We must keep in mind that disasters originate at the local 
level. Local responders are the first to arrive at a disaster 
scene. Those horrific first hours of September 11 are etched in 
our memories forever; local responders bore the brunt of that 
horror.
    Counties are willing participants in emergency 
preparedness. We pledge to work with all agencies on a 
national, State, and regional level. Hennepin County is staffed 
with hard-working, dedicated individuals willing to do all they 
can to ensure the health, safety, and welfare of our citizens. 
We ask that you help provide us the tools necessary to make 
that a reality.
    Madam Chairman, Members of the Committee, I sincerely thank 
you for the opportunity to testify here.
    Chairman Collins. Thank you very much, Commissioner.
    The commissioner put it very bluntly. He said, ``We need 
money.''
    Mr. Stenglein. I said it twice.
    Chairman Collins. I would like to ask all of our witnesses 
today your advice on how best to allocate that money. 
Regardless of the level of funding for Homeland Security, if 
the funds aren't getting to the people who need them most, if 
they aren't based on a formula that takes into account the 
threat, whether a State is a border State, whether it has major 
institutions or nuclear plants, etc., then no matter how much 
money we invest, we may not accomplish the goal of making our 
Nation safer.
    And you represent four different perspectives, so starting 
with the Governor, I would like to ask your advice, as the 
Committee drafts legislation, on the issue of how do you best 
and most effectively allocate the funding?
    Governor Romney. Well, the funding, I think we would all 
agree, should go to the individuals who are the first-line 
preventers and first-line responders. That is going to be 
overwhelmingly at the city and town level. Some States have 
counties and, therefore, county government may participate in 
that, may have law enforcement; other States don't, therefore 
they would not. Some States have very extensive involvement of 
the State police in this effort; others don't. So you would 
have a wide range of differences between who those first 
responders and first preventers might be, but that is where the 
money ought to go. And that is why I think the direction that 
has been pursued in the past, which money is flowing through to 
those first responders and first preventers is the right way to 
go.
    I would underscore what the Chairman has said, however, 
which is that money ought to go not just based on how many 
people there are in a location or what the geographical size is 
but, rather, what is the potential risk in a particular area. 
What kind of targets are there? What kind of access and 
availability is there to terrorist infiltration in the area? 
What kind of threat might exist from other sources, whether 
domestic or foreign, is something which has to be considered in 
where the funds would flow.
    And it would be conceivable for the Federal Government to 
say we are going to do that kind of scoring, if you will, on 
the unique qualifications, I think as the mayor indicated, or 
the unique circumstances of each city and town in the country. 
But you would have tens of thousands that would have to be 
scored that way. I think the preferable matter would be to have 
the respective States carry out that scoring and do that on the 
basis of the integrated plan which they and the localities 
would create.
    I mentioned that we have a city that has a nuclear facility 
in it, and one might say, oh, they obviously should get a lot 
of money then in that city to take care of that nuclear 
facility--except in our case the nuclear facility is not 
protected by the city or town. The protection entirely comes 
from the State Police and the National Guard. So, according to 
our plan, the funds should flow there.
    On the other hand, the city I mentioned that has the LNG 
tanks and the jet fuel tanks is entirely protected by local law 
enforcement. The State Police plays no particular role in that 
community. And, therefore, the funds should flow in that 
direction in that particular community.
    So I would underscore, let's flow the money where it is 
needed, that is, to the first responders and the first 
preventers. That is overwhelmingly going to be the cities and 
towns and counties, depending on the nature of the structure of 
the governmental entity in a particular State. But let's make 
sure it flows in a way which is consistent with a plan which 
has been created by all of those parties, Federal, State, and 
local working together, and then make sure that the individual 
uniqueness, as the mayor has indicated, of a particular 
community is factored into that assessment.
    Chairman Collins. Thank you very much, Governor.
    Mr. Mayor, I know in your written testimony you have said 
that, until very recently, Detroit had received very little by 
way of homeland security funding. What is your advice to us on 
allocating the funding?
    Mr. Kilpatrick. Well, thank you for asking that question, 
Madam Chairman. I would say I agree almost in whole with the 
Governor. I think we all agree that the money should go 
directly where it is needed most, and it should be based on a 
needs assessment, not based on population. And we should talk 
about where the health labs are that are doing the testing for 
the chemical or biological weapons. We should talk about where 
the Level I trauma centers are in our State. We should talk 
about the border security in a city like the City of Detroit 
and look at those unique qualifications of cities and towns and 
figure out how that money is allocated.
    I think that is where the big debate comes and how it comes 
to those cities. I think mayors in this country have to have a 
direct relationship with the Federal Government. Being a former 
legislator, I truly agree that if all things were equal, and 
there was a fair assessment of scoring, and things went into 
our State capitals and came out fairly, that would be the best 
way to do it. But we all know, just like Portland in Oregon and 
Detroit in Michigan and Boston in Massachusetts, we are the 
giant sucking sound. And oftentimes we are politicized when we 
are trying to do good things for our city that also protect the 
entire State. Detroit is 46-plus percent of the GDP of the 
State of Michigan, and a lot of people don't like that. You 
know, it gets political in State Houses, State legislatures, 
and even many governors' offices.
    So cities and mayors across this country in the 319 metro 
areas that make up 86 percent of the gross domestic product of 
this country are saying we need the money to come directly to 
cities because those local firefighters--I mean, when we have 
to pick up the phone and say there is an emergency, we don't 
call the county fire department or the State fire department.
    On the border every single day are our Detroit police 
officers, and that money is coming directly out of general fund 
dollars that would pay for more crime fighting in 
neighborhoods. So we need that money to come directly to the 
city. Legislative bodies represent people all over the State 
and they are there to fight for their constituencies. 
Oftentimes they don't look at the direct issue of how we 
protect our entire State. It is more of how do I get money to 
my hometown.
    So I think the dollars should be allocated directly to 
cities based on a needs assessment put together by the Federal 
Government's relationship to those cities. I said in my 
testimony, Los Angeles may need something different than the 
City of Detroit. In the City of Detroit, we have gone out and 
purchased a thousand HAZMAT outfits because we thought that 
would be a concern. We don't need any more of those, so we 
don't need money for HAZMAT. We need flexibility in spending so 
we can go out and say what we need is technology 
infrastructure; what we need is to do some work on our tunnel 
or our bridge crossing; or we need to improve our seawall so 
there is better access and better security measures there.
    So we need a direct relationship with the dollars, or it 
will be politicized in a State like Michigan. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you very much. Mr. Cleaves.
    Mr. Cleaves. Thank you, Senator. I wouldn't dare to sit 
here and disagree with a governor or a mayor at all. 
[Laughter.]
    But I would stress a couple of points, I think, that are 
very important.
    To this point, there hasn't been any money distributed to 
the States that we could get to the community except for the 
supplemental that just went through. That is the first money we 
have seen at the State level that can actually be flowed down 
to the local communities. And the other thing that I would 
underscore is that at the State level we have visibility of all 
the planning, and in order to coordinate it so that one city, 
one community doesn't duplicate what the next community has, 
i.e., I would point out that Portland, Maine, doesn't have its 
own HAZMAT team today and it relies on volunteers from four 
neighboring communities. They are building that capability, but 
we see at the State level all of this regional planning coming 
together so we could put together one strategic plan for the 
whole State.
    Chairman Collins. Thank you. Commissioner Stenglein.
    Mr. Stenglein. Well, it is very difficult, Madam Chairman, 
to come at the end of such esteemed and honored people who have 
some very good answers. Each unique community has their own 
needs, and the reality is that the people that sent us here are 
just counting on government to do it: ``They will take care of 
it.'' We are the ``they.'' And in Hennepin County, as an 
example, our hospital is a public hospital. There are hospitals 
that are private hospitals. They don't operate on capacity, 
they don't worry about capacity. They are always filling it up 
all the time, where our hospital, we have to maintain capacity 
all the time.
    So, again, the uniqueness of each area--and as Governor 
Romney pointed out, depending on how difficult an area is to 
secure, could mean various parts of a problem that hopefully 
our elected people are coming to you and bringing the wants and 
needs.
    Senator Lieberman was very accurate when he said that the 
war is within our borders now. The next 101st Airborne could be 
the Detroit Fire Department. It is very true, and they need 
those resources right away. Not saying that everything needs--
it is incumbent upon us to coordinate all things. If the 
National Guard has a lot of HAZMAT suits in a locality, they 
should become available without question.
    Chairman Collins. Thank you.
    Governor Romney, you mentioned the importance of a plan, 
and that is an issue that the Committee is also looking at. I 
wonder if you could share with us more about your experience in 
coordinating in your role with the Olympic Committee. It is my 
understanding that you came up with a single plan. I would like 
to know how important that was to the success of your effort 
and how you involved Federal, State, and local officials. 
Because, really, what you have done in many ways in that 
capacity is a model for what we need to do, in my opinion, for 
Homeland Security.
    Governor Romney. Thank you, Madam Chairman. It was a very 
interesting experience because, initially, as you might 
imagine, with the award of the Olympic Games and the prospects 
of literally billions of dollars coming to the State of Utah, 
there were a number of law enforcement agencies that thought 
this was going to be the Holy Grail. We would have all the 
money necessary for equipment, for communications, and for 
security, and so we had police departments, city police 
departments, county sheriff's police, as well as the State 
Police, all creating their own plans. And much as planning has 
been done so far in our Nation, for many States planning is 
every city puts together their own plan, we staple it all 
together and bind it and say here is the statewide plan.
    That would have not held us in good stead. I remember early 
on in my experience receiving a visit from the State Police, 
suggesting that they really needed an additional helicopter and 
couldn't we make that part of the security program for the 
Games. There was a sheriff in one of the rural counties that 
said they would love to have a mobile command center and 
couldn't we make that part of the overall plan.
    And what we found is that the cities and towns, the county, 
and the State each had their own vision of what they needed. 
But the only security program that was highly effective was one 
which was planned together with the cities, the towns, the 
county, looking at, if you will, a theater-wide strategy for 
providing security.
    I don't know as much about all the communities seated at 
this table as I do about the one in Salt lake City, Salt Lake 
City itself is a relatively small population and geographic 
center with many, if you will, suburbs around it. Having a plan 
for Salt Lake City alone, without encompassing those 
communities around it, wouldn't have been effective. And having 
each one of them develop their own plans with their own 
communications systems, their own mobile command centers and so 
forth would not have been efficient or effective. That is what 
happened in the Atlanta Games. That is how the Atlanta Games 
were planned, and we had a terrorist incident there.
    What we moved toward was a program where the local 
authorities, the State authorities, and the Federal Government 
sat down and worked together on a multi-year basis to create a 
truly comprehensive plan with no holes, where assignments were 
made, and where we said, for instance, OK, we only need one 
mobile command center, not one for each community. We need a 
communications system which is interoperable, and, therefore, 
cities and towns, we are not going to give you the money to go 
out and buy whatever you want. We are going to create a 
systemwide setting, and we put in place with Senator Bennett's 
help--a Member of this Committee--a communications program that 
covered all of the police and fire in the greater community.
    This kind of interoperability was only possible given the 
fact that there was a statewide plan and a theater-wide plan 
that was developed.
    Chairman Collins. Pardon me. I have to go.
    Governor Romney. That is fine. Thank you.
    Chairman Collins. Please complete your comment.
    Governor Romney. You have to go vote. That is fine. Thank 
you.
    I would note that what we have found as we have gone about 
the work of planning for our own community--and I have here 
with me today my Secretary of Public Safety, who was formerly 
the police chief in Arlington County, the home of the Pentagon, 
who is experienced in saying how do you create a plan which is 
robust enough to prevent terrorism and also to respond to 
terrorism, unless you do so on a regional basis where 
interoperability and efficiency are high priorities. And that 
is something which we are increasingly able to do on a State 
basis. This stapling together of all the cities' and towns' 
plans and calling it a State plan just doesn't make sense. And, 
therefore, it has been critical from our standpoint to insist 
on the monies we have received--we have now passed through the 
State Government more than 95 percent of the homeland security 
funds that have been appropriated since 1999. But when people 
came to us and said, gee, we would like this project, we said 
we will only approve projects that are part of a regional plan. 
With 351 cities and towns, we don't want 351 plans. We want 
regionality, with the City of Boston working together with the 
City of Chelsea and the City of Revere, which are right next 
door, which happen to house these LNG and volatiles tanks, 
making sure that we have a system that encompasses both.
    So I am, following on the Chairman's question, a strong 
believer in creating that plan with all parties and making sure 
that the funding is being allocated according to that plan. And 
I agree with the mayor. We don't want to have this as a 
political process, whether at the Federal or the State or the 
local level. It really has to be a plan based upon the specific 
needs and roles of the different parties.
    Senator Lieberman [presiding.] Thank you. I was thinking I 
feel like I am in the old Johnny Carson show where you hear the 
answer before you hear the question. [Laughter.]
    It was a good answer.
    Governor Romney. Senator, I was asked with regards to the 
Olympic experience the nature of the planning process that we 
had undertaken and how that worked. And just to repeat a small 
piece, we began with each locality putting together their own 
plan and trying to cobble them together, and it was impossible. 
What we ended up with was a planning process which was city, 
State, and Federal, where the Federal played a very important 
role in helping us to build templates to tell us what needed to 
be done area by area. And that is really what made all the 
difference.
    Senator Lieberman. I appreciate your answer, Governor. I 
thank you.
    Let me raise another question going to the relationship 
between the Federal Government and the local governments with 
regard to funding, and it is the question of whether because of 
your efforts in response to the terrorist threat or a response 
to a national problem, whether we should be directly funding 
personnel at the State, county, and local level?
    Now, to some extent in a different context, the domestic 
anti-crime context, we made this decision in the 1990's when we 
created and funded the so-called COPS program, but this 
proposal which I mentioned, which Senator Collins and I and 
others are cosponsoring, called the SAFER Act, would basically 
take the COPS idea and move it to firefighters, and we would 
fund, directly fund additional firefighting personnel based on 
the conclusion that fire departments are being required to 
bring on and train additional personnel to deal with terrorist 
threats.
    There is some disagreement about this. Governor Ridge was 
before the Committee a couple of weeks ago and said that he 
thought there was--I believe I am doing him justice, that he 
thought there was probably an argument for funding overtime of 
personnel, particularly based on Federal determinations of 
higher alert levels, but not to pick up personnel costs.
    So I wonder if I could ask you how you feel about us 
assuming some personnel costs at your levels of government 
based on a conclusion that those costs are necessitated by the 
national threat of terrorism. Yes, Mayor, do you want to start?
    Mr. Kilpatrick. Yes. Senator, that speaks directly to the 
individual uniqueness of each community in this country. And on 
behalf of Detroit, the only time we have received any homeland 
security money has been directly from the Federal Government. 
The supplemental appropriation gave our State $15.9 million. 
The City of Detroit was provided $369,000 of that--2.5 percent. 
It was given out in a way that everybody gets some money 
instead of a real needs assessment on what is needed in our 
State.
    When you have $1.4 billion of trade coming across your 
waters every single day; when you have the largest corporation 
in the world sitting on your riverfront, when you have local 
police officers performing the job of national security; there 
has to be another conversation.
    So I believe that the COPS program, and additional 
personnel are things that we should look at. But it should be 
done on a formula basis even from here. The individual COPS 
grants just allow local communities to hire police officers or 
firefighters. On behalf of Detroit, I am willing to submit what 
we actually need as far as homeland security, so that we can be 
evaluated fairly in a way where we get exactly what we need. I 
know mayors across the country would do the same.
    We put together this homeland security plan. We have 
outlined from each department what they actually need to 
deliver public service, every single day, because I don't 
believe that emergency response will ever work unless you are 
delivering services that way every day. If you are trying to 
jump into a good communications system when an emergency 
happens, it won't work. If you are trying to energize your 
health department when an emergency happens and it doesn't work 
on a day-to-day basis, it won't work.
    So we have spent a lot of time really getting our house in 
order to make sure that we can deliver basic public services, 
communicate with our citizens and bring our telecommunications 
and interoperable systems together with everyone so it works 
every day.
    I agree wholeheartedly with the governor--the comments he 
made when he spoke about the Olympics. These plans can't be 
piecemeal, and that is why I believe that so much money is 
being wasted when it comes to our State, because we want to 
give money to this plan or to that plan instead of forcing the 
regions around the State of Michigan to get together and deal 
with this in a comprehensive form. When you have a million-plus 
people in downtown Detroit for the fireworks display, those are 
Detroit police officers there. We get mutual aid from county 
sheriffs for those events. When the Red Wings--not this year--
win the Stanley Cup (but that is a usual happening around the 
City of Detroit), and a million people come downtown, those are 
local police officers.
    So, we have these agreements where we can work out regional 
things on a fund basis, and we want to drive everyone to sit 
down and talk about a real comprehensive plan. And I believe 
that with a direct relationship with local governments, an 
allocation of COPS dollars or COPS-formula-type dollars in 
homeland security would especially work for cities like Detroit 
that have become so politically charged in legislatures, in our 
legislature in Michigan. But it is always the big city--New 
York in New York, L.A. in California--it is always that big 
political thing that prevents the dollars from doing the most 
good for the citizens of that State.
    Senator Lieberman. Thanks, Mayor, for that thoughtful and 
helpful answer.
    Mr. Stenglein. Just briefly, Senator?
    Senator Lieberman. Yes, sir.
    Mr. Stenglein. On the surface, that sounds like a great 
idea because, you are right, the police and firemen are the 
first line of defense. But we have to be very careful, because 
when the police dollars went away, it was devastating to some 
cities because cities relied on those dollars and spent money 
that should have probably gone into public safety elsewhere.
    So my only caution is, if that happens, to be very careful 
in how it is allocated to the cities.
    Chairman Collins. Governor or Mr. Cleaves, would you like 
to answer that question?
    Governor Romney. I would be happy to. I will need to speak 
on my own behalf as opposed to the National Governors' 
Association.
    Senator Lieberman. Sure.
    Governor Romney. Because I am sure that from their 
standpoint any money would be greatly appreciated. [Laughter.]
    So I don't want to draw them into my own remarks, but I 
would say that certainly there is justification for the Federal 
Government playing an ongoing role in funding virtually any 
effort it wished to fund relating to homeland security. The 
Federal Government has a responsibility for defending the 
homeland, for national security, for national defense, and this 
clearly falls within that range.
    I would note, however, that our own experience at the 
Olympic Games was that the Federal Government rule, if you 
will, that we applied was that the funding would be provided 
for overtime only and that Federal support came for overtime, 
not only for those officers involved in the direct security 
effort but for those officers who were left at home that had to 
carry out overtime responsibilities because of those officers 
we had drawn away. So it was a pretty robust program.
    In this circumstance, I think we have an unusual setting, 
and that is that the homeland security challenge has been 
unanticipated and unplanned for. And cities and towns and the 
States have not put in place a structure for being able to deal 
financially with this sudden post-September 11 financial 
crisis. And, therefore, the prospect of receiving some support 
or reimbursement for not only equipment but also personnel I 
think is appropriate in these kind of unplanned, unanticipated 
emergencies.
    Going forward, that is an issue that we will be happy for 
any largesse that comes our way.
    Senator Lieberman. Mr. Cleaves.
    Mr. Cleaves. My answer will be very brief.
    Senator Levin. May I interrupt you just one second? Mayor 
Kilpatrick has to leave because of his schedule this morning 
and he is late for an appointment at HUD. And I am wondering 
whether or not we could excuse him, unless there is a question 
that any of us have--and I know I have a quick one, too. 
Senator Coleman I guess is our acting Chairman, so I will look 
at Senator Coleman. But if we could excuse the mayor, it would 
be very helpful, after a question or two. And I would ask the 
understanding of our other witnesses.
    Senator Lieberman. Mr. Cleaves, did you want to finish 
briefly?
    Mr. Cleaves. Yes, sir. Very briefly.
    Senator Lieberman. People from Maine are very much to the 
point. [Laughter.]
    Mr. Cleaves. We absolutely need funds with training 
flexibility because we don't have the police officers or the 
fire officials to adequately train today. So we can't even 
cover shifts. So, absolutely, money with flexibility for their 
training.
    Senator Lieberman. Thank you. Did you want to ask a 
question?
    Senator Levin. I think Senator Coleman is probably our 
acting Chairman, so let me ask Senator Coleman----

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Well, as an ex-mayor, I did want to get 
the mayor's response, and actually from others. But while the 
mayor is here, I was always a great believer in direct funding 
to the cities and was oftentimes concerned as dollars went to 
the States that they never found their way down, and you have 
indicated that in your testimony about the supplemental.
    My concern, though, is that not every city needs to have a 
robot bomb dog. Small cities don't. Have you thought about a 
regional approach? What do we do to make sure dollars get to 
you that you need in a more focused way, and whether at the 
State level that works fine, or a regional approach? How should 
we look at this?
    Mr. Kilpatrick. I believe that there are several things 
that you should force us to do regionally, and when I got into 
office, Detroit had always been--had friction regionally. We 
brought everyone to the table. We now for the first time, I 
believe, in Detroit's history have a great working relationship 
with Oakland County and with Macomb County. We have brought all 
of our hospital systems in the entire southeastern Michigan 
region together. We meet about our planning now, and we are 
doing exactly what the Governor outlined.
    It has taken us a while to get here. People are still 
scrambling because, yes, this is new. Homeland security is new. 
You still have some people saying they want their own 
interoperable system, which is kind of oxymoronic, you want to 
have your own interoperable system. But we are working out some 
of those issues.
    But you are right, there are some cities that receive 
funding from the State that absolutely cannot use it to do any 
furtherance of homeland security or hometown security for us in 
Michigan. So, I believe that there should be some parts that 
come directly to the local government. We are kicking up people 
to supervise now, and you are taking them out of the line ranks 
because you have got your good people leaving.
    So that is a big issue, but there are some concerns--the 
hospital funding, health care funding, Trauma I centers--where 
are they in the region? That should be regionally allocated, I 
believe, and there are some places that we should sit down and 
talk about how we deliver applications here together.
    I think that the perfect example is transportation funding 
when you talk about bringing together regional systems around 
this country to get the biggest bang for transportation 
funding. I think something like that can happen when we talk 
about homeland security.
    Senator Coleman. I will hold off in getting a response from 
the others, and I will recognize Senator Levin.
    Senator Levin. Just one question. First of all, the mayor 
has made reference to the action plan that he and the city have 
adopted relative to homeland security. And, Mr. Chairman, this 
is really a very visionary plan. It was done I think perhaps 
first in the country, and I would like this to be made part of 
the record of the hearing today.\1\
---------------------------------------------------------------------------
    \1\ City of Detroit Action Plan for Homeland Security, Background 
Paper, April 4, 2002, submitted by Senator Levin, appears in the 
Appendix on page 90.
---------------------------------------------------------------------------
    Senator Coleman. Without objection.
    Senator Levin. And my question is basically this: I also am 
a former local official. I was president of the City Council in 
Detroit, and we had----
    Mr. Kilpatrick. I wish you were there now, Senator.
    Senator Levin. And I understand the local perspective, too. 
It is essential, as the mayor said, that we not only have this 
regional effort put together to avoid handing out money to 
local communities that might not need it and to avoid 
duplication and waste, but you have got to have the local input 
at that table, as the mayor said. You have got to have a seat 
at that table. And it seems to me that is the challenge for us, 
to guarantee the local input at the same time we try to achieve 
the regional output or the regional outcome.
    So I don't know if the mayor has a comment on that, but I 
just want to thank the mayor for this visionary plan, and I 
thank all of our witnesses for allowing me to interrupt you so 
I could get our mayor out of here to the commitment he has. 
Thank you.
    Senator Coleman. Thank you, Senator Levin. And, Mayor, if 
you have to leave, you are excused, we appreciate your 
testimony.
    Mr. Kilpatrick. Well, thank you, Ranking Member Lieberman, 
Senator Coleman, and distinguished Members of the Committee. I 
apologize for having to leave, but as a mayor, HUD just 
threatened us for taking $46 million from us for something that 
happened in 1988 when I was a senior in high school. 
[Laughter.]
    So I have to go over to HUD to try to save $46 million so I 
can keep my job. I apologize, but thank you for the 
opportunity.
    Senator Lieberman. Mayor, thanks for being here. I just 
think not only based on your ability, your intelligence, your 
commitment, but on your size, I would never threaten you. 
[Laughter.]
    Mr. Kilpatrick. Thank you very much.
    Chairman Collins [presiding.] Thank you, Mr. Mayor, for 
being with us today.
    Mr. Stenglein. I think regionalism is--you are absolutely 
right, Senator Coleman. As you well know, Minneapolis and 
Hennepin County, the county has a crime lab, the city has a 
bomb squad, and we share, we interact. I don't know if other 
major metropolitan areas have a Met Council type planning 
agency, but regionalism like that on a seven-county--because we 
are within a compressed area enough that we can share 
resources, and it is absolutely incumbent upon us to work on 
sharing resources.
    Senator Coleman. Madam Chairman, if I can continue?
    Chairman Collins. Yes.
    Senator Coleman. The question I had asked, I would actually 
be interested in--and I appreciate that. One comment, by the 
way, before the other responses, and I want to make it--
Commissioner Stenglein, it is a pleasure to have you here. We 
talked about the COPS program and the money going away. The 
``going away'' doesn't mean it is because the program is gone. 
The ``going away'' is because the money is phased to go away.
    Mr. Stenglein. Right.
    Senator Coleman. And what we are seeing in Minneapolis, 
Minnesota, right now is a situation where, because of financial 
difficulties of the city, we have the prospect of potentially 
laying off cops. In St. Paul, I hired ten folks in the COPS 
program, but had a long-term payment plan. And if you don't, 
that is the danger that you face. So I presume when you said 
going away----
    Mr. Stenglein. Exactly. It is important that those 
positions are guaranteed or the payment stream like you did to 
keep them going.
    Senator Coleman. I appreciate that.
    Governor, I would be very interested in your perspective on 
regional approaches.
    Governor Romney. Thank you. I think Mayor Kilpatrick and 
myself would underline the same observations. One is that each 
city and town has a very unique circumstances or set of 
circumstances that they have to deal with as it relates to 
terror and security and that assessing those is essential to 
deciding what level of funds and what level of resources are 
necessary in a particular area.
    Second, the only effective plans can be done on a regional 
basis. You can't put plans together on a citywide basis. Now, 
perhaps in some States, they only have three cities and that 
encompasses the entire population, you could do that. In our 
State, we have 351 cities and towns, so you can't do that. It 
has to be done regionally. And I don't know how you do 
something on a regional basis which takes into account the 
unique differences between cities and towns unless it is being 
done by the State. I don't know how you encompass regionality 
and pulling together regions unless the State is playing a lead 
role in doing so.
    We could say we would like the Department of Homeland 
Security to create regions across the entire country, but the 
Department of Homeland Security has enough difficulty just 
dealing with 50 different States and their differences. But to 
say now you are going to take States apart and figure out their 
regions and get them to work together, put together plans, I 
just don't think is possible.
    That is why I look to our Secretary of Public Safety, as a 
former police chief, and say let's make sure and create plans 
that are regional, that account for the differences and the 
unique elements of the respective communities within that 
region, and let's remove the politics. And I guess that was the 
question, I think, that the mayor had said, gosh, this could be 
political. You could have a State Government decide to hang 
onto the money or give it to their friends instead of the 
communities that need it.
    I don't know how much that occurs in his State. I certainly 
don't believe it happens in our State. I believe this is an 
issue, homeland security, which is amenable to pretty clear 
objective criteria of targets and risks and who is playing 
which responsibilities, and the money should flow on those 
bases.
    If someone really felt that the process had become too 
political, I guess one could ask the Department of Homeland 
Security to review the plans of the respective States to make 
sure that they are comprehensive and are fairly scored and are 
fairly encompassing the risks of the communities within that 
State. That is if someone felt it were out of bounds. But I do 
believe that regionality and uniqueness of circumstances forms 
the basis of how we have to carry out our homeland security 
effort.
    And I would note again, just underlining that Olympic 
experience, that something that Senator Levin mentioned was 
that we have to have the localities as part of this process. 
You don't want to have a group of State employees and appointed 
officials putting together the plans of security. My 
experience, again, with the Olympics was that when we asked the 
State folks to come up with a plan, it wasn't right. When we 
asked the Feds to come up with a plan, it wasn't right. When we 
asked the localities to come up with a plan, it wasn't right.
    The way the plan worked is by having all come together on a 
multi-year basis to create a unified plan where, in fact, the 
FBI played a lead role in intelligence, the Secret Service a 
lead role in terms of operational security and the hardening of 
our sites, and that kind of comprehensive planning process 
involved localities is an essential part of creating a regional 
plan which recognizes those uniquenesses.
    Senator Coleman. Mr. Cleaves.
    Mr. Cleaves. Senator, I couldn't say it any better than 
Governor Romney just did. Maine built its strategy around 
regionalization, and it involved paper companies with HAZMAT 
teams, and we continue to do that. And the only way you can 
achieve true efficiency and effectiveness is through 
regionalization. We stress that from the State level. We have 
got the emergency management grant process that we could follow 
that teaches building that, and an e-map, an assessment through 
emergency management that allows you to measure the progress of 
each of those regions as you build them.
    Chairman Collins. Thank you for that response.
    Mr. Cleaves, I want to follow up with you on a point that 
you made in your testimony. You talked about that you receive 
homeland security funds from a variety of different agencies 
and that each agency requires a separate emergency management 
plan and each has a separate grant program that requires a 
separate application.
    I assume that that paperwork involves duplicating work that 
you have done for one agency but doing it on a new form and 
responding in little different ways. Is that correct?
    Mr. Cleaves. Absolutely, Senator.
    Chairman Collins. Is that a problem? Does that divert time 
away from higher priorities? Do we need to try to streamline 
the process so that you have one plan?
    Mr. Cleaves. Yes, please. Senator, we have to give plans to 
FEMA currently, and the Department of Justice or ODP grants, 
each one containing different strategies, slightly different. 
Same overall strategy for the State of Maine but different 
forms to fill out.
    Shortly after September 11, we had to divert our crews to 
finish the ODP grant that we were working on so we could get at 
the money for the first responders to provide equipment for 
them. So we diverted help from one area in order to fill out 
these grants. So if we could have one strategic plan for the 
whole State, and as a matter of fact it would be ideal if it 
encompassed the Bureau of Health so CDC and HRSA money would 
also be under one total plan for the State. That would be ideal 
for us. One time and one computer input, please.
    Chairman Collins. In view of the circumstances today I am 
just going to ask one final question but we may have some 
additional ones for the record, and I am going to give Senator 
Levin an opportunity to see if he has some additional ones. I 
do want to say that all of your written testimony will be put 
in the hearing record as well.
    My final question, and I will start with you, Governor, is 
would it be helpful to have a single entity within the 
Department of Homeland Security that is knowledgeable about all 
the homeland security grant programs both inside and outside of 
the Department, so that you could have a single point of 
contact, sort of one-stop shopping, if you will, for homeland 
security?
    Governor Romney. I think that principle is so attractive 
that I wish it could apply to all agencies of the Federal 
Government. I think one of the great challenges we have at the 
State, and I am sure at the municipal level as well, is trying 
to find where to go to obtain support or financial help as 
necessary to carry out the missions of State Government. And 
particularly in an area as important as homeland security, 
having a place where one could apply for help and guidance 
would be remarkably valuable.
    I salute the work of Secretary Ridge. He is creating a 
remarkably successful program. We have had a chance to meet on 
a couple of occasions now and each time I am impressed with 
what is being accomplished there. The work to create some 
templates, if you will,--and by that term I mean some guidance 
as to what types of action we might want to carry out at a 
particular threat level for a particular type of potential 
target. Those kinds of templates are highly valuable to us.
    So, likewise, receiving support for making a single point 
of access to homeland security for grant purposes as well as 
for other informational purposes would be highly valuable.
    Chairman Collins. Mr. Cleaves, would that be helpful for a 
small State like Maine to have that single point of contact?
    Mr. Cleaves. Yes, Senator, I certainly do agree with that. 
That would be very helpful to us. I would suggest that if that 
were to occur that the individual or individuals would be 
located at the one homeland security center where the governor 
has access to that. That, in our case, is Maine Emergency 
Management. It would be collocated so that we could more 
effectively work all the programs.
    Chairman Collins. Commissioner?
    Mr. Stenglein. Madam Chairman, echo 100 percent. Yes, it 
would be. It would be wonderful.
    Just to follow, when I first became a commissioner--and I 
am a business guy--to follow Federal health care funding is an 
absolute maze. Hopefully we do not get into that problem with 
security funding because, the bottom line is, our residents 
depend on us to keep them safe. So the most we can streamline 
this with one entity, one agency here, the better off for 
everybody.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman. This seems to be 
4M day here. We have got Massachusetts, Michigan, Maine, 
Minnesota. I do not know how Delaware got in here?
    Governor Romney. Governor Minner.
    Chairman Collins. Very good.
    Senator Levin. On this issue that Senator Collins has 
raised, I have raised this central point question in a slightly 
different way with Governor Ridge a number of times. In Senator 
Collins' bill is a very important provision about that central 
point of contact. It should be presumably, or what it is going 
to be is the office for State and local coordination in the 
Secretary's office. But that has not been done and the bill is 
very helpful in that regard to promote it.
    But I would also urge Governor Ridge to have an 800 number 
where State and local governments can call in the meantime. 
Just one place where you can call for information. He is 
committed to creating that number. It has not yet been created, 
but I want to let you know that Senator Collins and all of us 
here are very conscious of the dispersal or the dispersion of 
information even about grants and other needs at the 
department. So the 800 number commitment has been made by 
Governor Ridge.
    My second point really is a question. Is there any overall 
number in your States, dollar figure, for the extra cost of 
homeland security since September 11? Would you be able to tell 
us in your States or your local communities--does a number 
exist in any of your States or local communities, this is what 
you were spending on security prior to September 11. This is 
what our expenditures are since September 11. Governor, let me 
just ask you first, perhaps.
    Governor Romney. Let me respond to your first point first, 
the 800 number, and then the second. I would note that our 
ability to access information from homeland security has been 
remarkably good, both through the White House, Ruben Berellas, 
who does intergovernmental affairs in the White House, gets us 
to the right place quickly. We likewise, through both of 
undersecretary contact and through Governor Ridge himself have 
been able to get superb information. I have no complaints 
there. I do not always like the answer, but I love the 
communication and we have been very pleased there.
    Senator Levin. I do not think that is true with a lot of 
local governments. It is shared more so with State Governments.
    Governor Romney. I am sure that is the case. I cannot 
possibly read all the figures to you, but I have just been 
handed here a summary of our spending on security associated 
with preventing terrorism and responding to potential terrorist 
acts since September 11. That is something we will be happy to 
provide to the Committee in great detail.
    Senator Levin. The extra amount----
    Governor Romney. The extra amount of spending. I am given a 
total here of approximately $53 million is the cost to our 
State and municipalities associated with additional spending 
post-September 11.
    Senator Levin. Per year?
    Governor Romney. That would be in total since September 11. 
The numbers are getting better and better. When Secretary Ridge 
contacted us with the most recent declaration of the Orange 
level of threat he said, I would like you to collect community 
by community and statewide what your true incremental costs 
are.
    For instance, in the community I mentioned that has the LNG 
facilities, I spoke with the mayor there. He said, we would 
like to consider putting on--and I will not give you the exact 
number, but we would like to consider putting on additional 
patrols to circulate in that area. I said, what will it cost? 
He said, it is $100,000 in additional overtime to protect that, 
per week. I said, go ahead. We will stand behind you on a State 
basis. We did that with a number of localities, again, 
according to our statewide plan. We add those numbers up and 
can look on a weekly basis. At the State police level we were 
spending about $250,000 incremental overtime during Code Orange 
that we do not spend otherwise. This was to protect our 
tunnels, our bridges, and certain other key targets.
    So we calculate the number, gather the number and $53 
million is the round figure. We can provide that on a pretty 
detailed basis.
    Senator Levin. Does Maine have a figure?
    Mr. Cleaves. I cannot give you that figure, Senator.
    Senator Levin. For the record, if you could try.
    Mr. Cleaves. What I can tell you is that from the Maine 
Emergency Management agency, we have chased the figures every 
time and there is a difference between should have and could 
have. What the folks want to do, municipal officials wanted to 
do, they were not able to do, so many of the communities ran a 
great risk. We went from Portland, Maine all the way to Caribou 
and Fort Kent trying to assemble those costs, but all we got 
back was a lot of, this is what we would have done. So a lot of 
holding our breath out there right now.
    Senator Levin. Madam Chairman, that is a very important 
point and I would ask the governor also to submit the need 
figure as well as what you actually spent above your previous 
amount, because Mr. Cleaves' point is critically important in 
that regard, too.
    Mr. Stenglein. I could not agree more. There is a need 
level that everybody will say, oh my gosh, I cannot believe you 
did not do that even though you should have done that but you 
did not have the resources. In Hennepin County it is in the low 
millions. That may be a small number for the folks who deal 
with numbers out here, but for us it is a large amount. The 
exact number will be forthcoming.
    Our courthouse was built to access the public. There are 32 
entrances and it is very difficult to screen 32 entrances. Then 
there was the cost of closing down a public garage which 
generated revenue for us too. We had that closed down for 8 
months. Now it has reopened again.
    Senator Levin. Which is a cost.
    Mr. Stenglein. Sure it is. If opportunity cost.
    Governor Romney. Senator, might I add a comment as well 
with regards to our spending and the $53 million? Following 
September 11, a significant portion of our security spending 
was designed to reassure the public that we were doing 
something. But not all of that spending was really essential to 
actually securing various sites. We had, for instance, State 
troopers at the entrance to major tunnels, the entrance to 
which was a 55-mile-an-hour, eight-lane highway. There is not 
much the trooper was really going to be able to do if there 
were to be some kind of a terrorist attack at that tunnel other 
than to communicate to the public that we were there and 
caring.
    So we spent a lot of money to be visible and to show that 
we were concerned. How much was absolutely essential to 
protecting that asset is something which we would also need to 
calculate.
    Senator Levin. Thank you. I am going to pass on my other 
questions just because of the circumstances.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman. To our witnesses, 
welcome.
    Where are you from, Mr. Stenglein?
    Mr. Stenglein. Minneapolis, Hennepin County.
    Senator Carper. Welcome. Maine; is that correct?
    Mr. Cleaves. Yes, sir.
    Senator Carper. And Massachusetts?
    Governor Romney. Correct.
    Senator Carper. As an old governor, I welcome you. I have 
not had the privilege of meeting you, but welcome today. I 
always thought it was a privilege to be Governor of Delaware 
and I wish you great success in your responsibilities.
    Senator Collins, who usually leaves the room when I am 
about to speak---- [Laughter.]
    Thank you for carrying on while I go vote.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Senator Collins and I introduced 
legislation last month--we try to introduce a bill a month. We 
introduced a bill last month that says, let us address a little 
bit the flexibility of the first responder monies as they come 
to States. I think there are four categories that you can be 
spend your first responder dollars in.
    I think one is for planning, one is for training, one is 
for exercises, and I think the other is equipment purchases. 
The current program is rather restrictive as to how those 
monies can spent. The bill Senator Collins and I have 
introduced gives States the option, if they want to, to ask for 
a waiver from the Secretary of Homeland Security that would 
allow them to spend their first responder money more flexibly. 
Not to create a fifth or sixth or seventh pot, but to move 
money back and forth between those four.
    I do not know if you are aware of that legislation, if you 
have any thoughts as to whether it might be a good or a bad 
idea. I do not know if any of the organizations that you are 
part of, including the National Governors Association might 
have a view on it that you could share with us.
    Governor Romney. I cannot share the National Governors 
Association view of the specific legislation because I am not 
really authorized to speak on behalf of all the governors on 
that matter. I will speak as one of them, however, and 
anticipate that the other governors would agree. That is that 
the principle of flexibility is something which they would very 
much applaud.
    The constraints occasionally of programs or funding which 
come from Federal programs can be challenging and can suggest 
that money needs to be spent in a way that may not be 
consistent with the comprehensive plan which has been developed 
by the State, the region or the municipality. Being able to 
have a mechanism to approach the Secretary of Homeland Security 
and ask for a waiver to spend money in the four categories but 
according to our plan I think would be a very positive step.
    I am concerned about the fact that municipalities and State 
Governments facing tough economic circumstances will look to 
take money to solve budget problems elsewhere. Homeland 
security money should, of course, be directly towards solving 
homeland security needs. So there need to be strictures and 
guidelines which are applied. But the principle of flexibility 
within those different categories is one which I think is 
consistent with safeguarding the public's money and providing 
for homeland security.
    Senator Carper. Thank you. Mr. Cleaves.
    Mr. Cleaves. Senator, very specifically, in our State, 
under the ODP grant process that we are currently working with, 
we are allocated $1 million in exercise money for this year. We 
cannot train, we cannot exercise, so I cannot get from point A 
to point B. So what Maine is facing is the return of $1 million 
unspent and still leaving needs that are unmet in terms of 
training. It is the cost for overtime, flexibility is what we 
really need.
    Senator Carper. Thank you.
    Mr. Stenglein. Senator, I think the need for flexibility is 
pretty obvious. Earlier, the Mayor of Detroit brought up an 
excellent situation in that if they have a bunch of HAZMAT 
suits and they get money to buy HAZMAT suits, it is unfortunate 
that they do not need any more HAZMAT suits. So we need the 
ability to move the money around.
    Senator Carper. What we have in mind is permission to move 
money from one of the four categories to another. It would be 
in order to allow them not just to meet their individual needs 
but to be consistent with their emergency management plans. 
There would have to be some rationale to the movement.
    All right, good. Thanks. Thanks very much. Is anyone in the 
room from the National Governors Association? Do we have 
anybody who is from the NGA? Welcome. I thought if the NGA 
could share with this Committee, with Senator Collins and 
myself, a view of the legislation that would be most 
appreciated. Thank you very much.
    Senator Coleman. Senator Carper, Senator Levin asked the 
question--I did not hear all the answers but I would direct it 
to you, governor, about increased homeland security costs post-
September 11. I was a mayor on September 11, and afterwards 
with the whole set of things we had to do. But one of the 
things that troubled me as a Mayor was that I would have my 
department heads and fire department come in, and I would have 
a list of all sorts of needs. I did not need to increase the 
number of firefighters in St. Paul in order to deal with 
September 11.
    So as that question is asked, the question I have, again, 
wanting the money to be well spent, and wanting to be focused, 
who should assess the needs? Who assesses whether Bangor, Maine 
needs certain equipment, whether Minnetonka, Minnesota, a small 
town, has needs? How do we do that so in the end when we get a 
response as to here are the increased security costs, we have a 
sense of confidence that the security costs are in fact 
September 11 related in different perspectives, not simply, we 
have a lot of needs and in this environment, this is an 
opportunity then to have all those needs met? Who should be 
responsible for that kind of assessment? I will start with you, 
governor.
    Governor Romney. Thank you. I would not have an answer for 
that had I not gone through this experience with the Olympics. 
Here we had a setting where we knew we were a potential target 
for terrorism. The Olympic Games have been terrorized at least 
twice before resulting in a loss of life. So we began a process 
several years before the games beginning to plan for what the 
security would be at our various venues and so forth.
    The legislation which created the designation of a national 
special security event came very much to our benefit. That is 
that the Federal Government was tasked with providing specific 
guidance in helping us construct a security plan for the 
Olympic Games and for the community in which the games were 
being held.
    What that meant was that, for instance, when it came time 
to decide what we are going to do at our basketball arena, that 
instead of asking the local Salt Lake police or the sheriff of 
Salt Lake County or the State police to develop a plan to 
protect the basketball arena during the Olympic Games, instead 
we were able to work with the Secret Service and they said, 
these are the parameters. This is a template, if you will, of 
how to protect a facility which is a potential target, which 
will potentially be hosting heads of State, against a terrorist 
attack.
    They provided us with the specifics; the number of feet we 
needed to have barricades, distance from the facility. How we 
dealt with the media trucks and cables and so forth that might 
be in the facility. The level of search that would be necessary 
for people coming in the facility. They really provided the 
guidelines. Then we at the local level and the State level, 
working with them, applied them to the specific circumstances 
of the physical plant we were looking at.
    So in creating those plans on a regional basis or a city 
basis, I look to a similar model, which is the Department of 
Homeland Security, which now I understand has the Secret 
Service within it, provides to us a series of, if you will, 
broad guidelines or templates saying that when you reach a Code 
Orange state, or a Code Red state, or a Code Yellow state, then 
these are the parameters that we think should be applied for a 
nuclear facility, these are for a major tunnel, a major bridge, 
these are for major buildings, these are for gatherings of 
individuals. These are the types of things that you should have 
in place. This is the amount of HAZMAT capacity you should have 
based on population. So they provide, if you will, some 
overview guidelines.
    We take those guidelines and on a State basis, working with 
our localities, we apply them region by region, city by city, 
town by town. I would then anticipate that the Federal 
Government will look at those and say, yes, looks like you did 
a pretty good job. You are not over-politicizing, you are not 
taking care of your friends, you are doing the right job 
statewide, and now we have a plan which is consistent not only 
within our State but consistent across the Nation, and has 
associated with it the funding requirements of that plan as 
well.
    Senator Coleman. So you see a very clear Federal role 
providing some kind of template, almost so that the specifics 
get dealt with at the local level?
    Governor Romney. Exactly. We do that, for instance, with 
nuclear facilities today. Prior to the September 11 
circumstance, as I understand it, the Nuclear Regulatory 
Commission lays out, if you will, a series of guidelines for 
how a nuclear facility is to be protected. Those guidelines are 
interpreted and managed differently in different States. But 
the Federal Government does provide some direction.
    With regards to our planning for the Olympics, the help of, 
in this case the Secret Service in laying out the protection of 
physical facilities was very helpful. The help of the FBI in 
giving us direction on intelligence and who should play which 
role, and how the local authorities would gather data and 
funnel that to the Federal authorities or State authorities was 
something they had done before, they managed for us. So they 
played a very important role in doing that.
    Had we been left to our own devices we might have cobbled 
something together in the manner that it happened in Atlanta, 
where there were gaping holes between plans of the different 
municipalities and the State and the Federal Government. So a 
far more comprehensive plan was established by having all 
parties work together with extensive Federal involvement.
    Senator Coleman. I would be very interested in the other--
particularly a more local perspective coming from the 
commissioner, but Mr. Cleaves.
    Mr. Cleaves. Senator, thank you. I am concerned about a 
template that you describe from the Federal level because it 
cannot be a cookie-cutter approach. All local municipalities 
need to know what mutual support is available left and right, 
and they know that. So the planning group needs to include the 
local, then a regional level, and State level, and then not to 
forget the Federal partners. In Maine we have formed an 
antiterrorism task force----
    Senator Coleman. You actually have a joint Federal task 
force, you have that model in Maine?
    Mr. Cleaves. Yes, we do. We have a model that the U.S. 
Attorney chairs along with us at the emergency operation 
center. We meet frequently to look at the plans and pull--one 
of the things that we found most out of sync was that the 
Federal departments that support our coastline or our borders 
were not interwoven on a daily basis with the State departments 
or the local government entities. At meetings sometimes, but 
not interwoven so that you know operational details on a daily 
basis. It also includes the FBI.
    So that is working well for us. But it has got to include 
from the local level up so they know what both Federal and 
State capabilities are, so you will know what that response is. 
That is the most effective and efficient way to do it.
    Senator Coleman. Commissioner Stenglein.
    Mr. Stenglein. Senator, are you asking with specificity 
what person would be in charge of that? I think that is what 
you are looking for.
    Senator Coleman. I am trying to figure out who should do 
the assessment. I am sitting at my level and we hear that--the 
question from Senator Levin was, tell us about your increased 
cost. We have to assess. Folks need more money. My concern is, 
who is assessing whether those are truly homeland security 
costs? I need to have more confidence based on my own 
experience as a mayor where a fire chief coming in wanting 
increased firefighters, increased all this stuff and I am 
sitting there--I have got to tell them, that is not related to 
September 11. So who should do that kind of assessment that 
will allow policymakers at this level to have confidence in 
needs so that we can make judgments about needs?
    Mr. Stenglein. Senator, speaking from the perspective of 
Minnesota and the county form of government we have there, St. 
Paul has different needs than White Bear, as you well know. 
White Bear does not have a River Centre or an Excel Center. The 
person closest--I believe firmly in keeping those decisions and 
those realizations as close to the residents as possible. The 
elected sheriff in each town, in each county, is a good person 
to turn to for that. As you well know, back in Minnesota with 
the 800 MHz communication process, those sheriffs and the 
counties have gotten together. CRIMNet is another great 
example, taking a front end device of technology through joint 
powers boards and pulling it together to understand that.
    The exact assessment needs to come from as close to the 
people. I think the elected sheriff in each county is a good 
person to turn to.
    Senator Coleman. And the Federal role in that?
    Mr. Stenglein. The Federal role in that, clearly we 
definitely depend on the Federal role to give us guidelines on 
how to protect a power plant, how to protect a tunnel, how to 
protect bridges, airports, these sorts of things. The expertise 
coming from the Federal level, we should not duplicate that at 
the State level at all.
    Senator Coleman. The question, I think was a very good 
comment made about the joint task forces, which I know in 
Minnesota are very strong. Do they have a role to play in this?
    Mr. Stenglein. Yes.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you very much, Senator Coleman. You 
have been very interested in this issue and I was pleased to 
join you earlier in the week in Minnesota where we could hear 
from other officials and that was very valuable as well.
    I want to thank all of our witnesses for their 
extraordinary patience with the unusual circumstances of this 
hearing today. It was very valuable to us. And I want to thank 
my colleagues for keeping the hearing going. Last night, at one 
point we thought of trying to postpone the hearing, but then we 
realized we could not find you to tell you that. I am glad that 
we decided instead to go forward because we do want to act on 
legislation within the next few weeks.
    I am sure that we will be in touch with you for drafting 
the bill to get additional advice, but your testimony today has 
been extraordinarily helpful. Again, I want to thank you for 
your patience as we have run back and forth from the floor to 
vote. So thank you very much.
    The hearing record will remain open for 15 days. I want to 
thank my staff for their hard work on this hearing as well. We 
look forward to working with you to strengthen the partnership 
among the Federal, State, county and local governments as we 
all work toward the goal of strengthening our homeland 
security. So thank you and this hearing is now adjourned.
    [Whereupon, at 11:33 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR VOINOVICH

    Good morning and thank you, Madam Chairman.
    Madam Chairman, I commend you for your continued leadership and 
dedication to ensure that our State and local governments have a forum 
in Congress to discuss the challenges they face in securing our 
homeland. Protecting Americans from further acts of terrorism is the 
top national priority. It is an enormous task that involves the 
cooperation of hundreds of thousands of dedicated local, State, and 
Federal employees who guard the ports and borders of our country, 
gather and analyze intelligence, investigate leads, make arrests, and 
respond to assist the victims of terrorist attacks.
    It is clear that terrorism has changed the way we govern at the 
Federal, State, and local levels. As a former mayor and governor, I 
understand what it takes to make hard choices in tough economic times. 
Therefore, I am extremely attentive to the fact that our States are 
facing their worst economic crisis in 50 years. State legislatures 
across the country are attempting to balance their budgets through 
challenging and unpopular mechanisms, such as raising taxes or cutting 
services. Unfortunately, the Federal Government is not in the position 
to offer a great deal of financial assistance, as we are faced with our 
own tough budget decisions.
    However, Madam Chairman, I strongly believe the Federal Government 
could offer better structural solutions to help the States and 
localities improve the delivery of homeland security services. For 
instance, there is one homeland security grant program, administered by 
the Office of Domestic Preparedness, which is based on a pre-determined 
formula that does not provide the States any flexibility when 
disbursing funds.
    Furthermore, the General Accounting Office recently noted that 
there are at least 16 different grant programs for the Nation's first 
responders. These grants are currently provided through two different 
directorates of the new Department of Homeland Security, and through 
the Department of Justice, and the Department of Health and Human 
Services. This is a clear example of how fragmented the homeland 
security grant process is. Madam Chairman, I am afraid this 
fragmentation is causing confusion and an administrative burden for 
State and local officials, a situation Congress specifically intended 
to avoid in creating the new Department. One of the main reasons for 
creation of the new Department was to consolidate, coordinate, and 
streamline homeland security functions and to provide for homeland 
security more effectively.
    Fortunately, Senator Collins introduced two legislative solutions 
to alleviate these problems and I am pleased to co-sponsor both bills. 
The first bill would give States the flexibility to use Office of 
Domestic Preparedness grant money from one category of funding, such as 
training, for another purpose, such as equipment. The second bill would 
move the Office of Domestic Preparedness from its current location in 
the Border and Transportation Security Directorate to the Office of 
State and Local Government Coordination. This organizational shift 
should establish a centralized location within the new Department of 
Homeland Security to help our first responders identify and apply for 
important grant funding.
    At the Federal level, we also must make a concerted effort to 
ensure that funds are distributed to the States and localities in a 
timely manner. In fact, I recently discussed this issue with the Dale 
Shipley, Director of the Ohio Emergency Management Agency. I was 
astounded to learn that Ohio did not receive the FY 1999 and FY 2000 
funds for homeland security until March 2002. Remarkably, as of April 
17, 2003 only 88 percent of the FY 1999 funding was spent.
    In May 2002, my State of Ohio received the FY 2001 funding and as 
of December 2002, just 49 percent of those funds were spent. 
Unfortunately, the process did not improve for FY 2002, as funding was 
not distributed until October 2002, one year after the beginning of the 
fiscal year. As of December 2002, only 11 percent of the money was 
spent.
    Today, I am interested in hearing if our witnesses are encountering 
similar problems and, if so, what solutions they propose. At the end of 
this process, I am hopeful that we can ease the strain caused by the 
disjointed homeland security grant process. My goal is to go back to 
Dale Shipley, and the Mayors of the six largest cities in Ohio, who 
recently contacted me about their homeland security challenges, and 
tell them that we are making the grant process clear, efficient and 
responsive to their needs.
    Madam Chairman, thank you for your leadership on this issue, and I 
look forward to an engaging discussion with our witnesses.

[GRAPHIC] [TIFF OMITTED] T8248.001

[GRAPHIC] [TIFF OMITTED] T8248.002

[GRAPHIC] [TIFF OMITTED] T8248.003

[GRAPHIC] [TIFF OMITTED] T8248.004

[GRAPHIC] [TIFF OMITTED] T8248.005

[GRAPHIC] [TIFF OMITTED] T8248.006

[GRAPHIC] [TIFF OMITTED] T8248.007

[GRAPHIC] [TIFF OMITTED] T8248.008

[GRAPHIC] [TIFF OMITTED] T8248.009

[GRAPHIC] [TIFF OMITTED] T8248.010

[GRAPHIC] [TIFF OMITTED] T8248.011

[GRAPHIC] [TIFF OMITTED] T8248.012

[GRAPHIC] [TIFF OMITTED] T8248.013

[GRAPHIC] [TIFF OMITTED] T8248.014

[GRAPHIC] [TIFF OMITTED] T8248.015

[GRAPHIC] [TIFF OMITTED] T8248.016

[GRAPHIC] [TIFF OMITTED] T8248.017

[GRAPHIC] [TIFF OMITTED] T8248.018

[GRAPHIC] [TIFF OMITTED] T8248.019

[GRAPHIC] [TIFF OMITTED] T8248.020

[GRAPHIC] [TIFF OMITTED] T8248.021

[GRAPHIC] [TIFF OMITTED] T8248.022

[GRAPHIC] [TIFF OMITTED] T8248.023

[GRAPHIC] [TIFF OMITTED] T8248.024

[GRAPHIC] [TIFF OMITTED] T8248.025

[GRAPHIC] [TIFF OMITTED] T8248.081

[GRAPHIC] [TIFF OMITTED] T8248.082

[GRAPHIC] [TIFF OMITTED] T8248.026

[GRAPHIC] [TIFF OMITTED] T8248.027

[GRAPHIC] [TIFF OMITTED] T8248.028

[GRAPHIC] [TIFF OMITTED] T8248.029

[GRAPHIC] [TIFF OMITTED] T8248.030

[GRAPHIC] [TIFF OMITTED] T8248.031

[GRAPHIC] [TIFF OMITTED] T8248.032

[GRAPHIC] [TIFF OMITTED] T8248.033

[GRAPHIC] [TIFF OMITTED] T8248.034

[GRAPHIC] [TIFF OMITTED] T8248.035

[GRAPHIC] [TIFF OMITTED] T8248.036

[GRAPHIC] [TIFF OMITTED] T8248.037

[GRAPHIC] [TIFF OMITTED] T8248.038

[GRAPHIC] [TIFF OMITTED] T8248.039

[GRAPHIC] [TIFF OMITTED] T8248.040

[GRAPHIC] [TIFF OMITTED] T8248.041

[GRAPHIC] [TIFF OMITTED] T8248.042

[GRAPHIC] [TIFF OMITTED] T8248.043

[GRAPHIC] [TIFF OMITTED] T8248.044

[GRAPHIC] [TIFF OMITTED] T8248.045

[GRAPHIC] [TIFF OMITTED] T8248.046

[GRAPHIC] [TIFF OMITTED] T8248.047

[GRAPHIC] [TIFF OMITTED] T8248.048

[GRAPHIC] [TIFF OMITTED] T8248.049

[GRAPHIC] [TIFF OMITTED] T8248.050

[GRAPHIC] [TIFF OMITTED] T8248.051

[GRAPHIC] [TIFF OMITTED] T8248.052

[GRAPHIC] [TIFF OMITTED] T8248.053

[GRAPHIC] [TIFF OMITTED] T8248.054

[GRAPHIC] [TIFF OMITTED] T8248.055

[GRAPHIC] [TIFF OMITTED] T8248.056

[GRAPHIC] [TIFF OMITTED] T8248.057

[GRAPHIC] [TIFF OMITTED] T8248.058

[GRAPHIC] [TIFF OMITTED] T8248.059

[GRAPHIC] [TIFF OMITTED] T8248.060

[GRAPHIC] [TIFF OMITTED] T8248.061

[GRAPHIC] [TIFF OMITTED] T8248.062

[GRAPHIC] [TIFF OMITTED] T8248.063

[GRAPHIC] [TIFF OMITTED] T8248.064

[GRAPHIC] [TIFF OMITTED] T8248.065

[GRAPHIC] [TIFF OMITTED] T8248.066

[GRAPHIC] [TIFF OMITTED] T8248.067

[GRAPHIC] [TIFF OMITTED] T8248.068

[GRAPHIC] [TIFF OMITTED] T8248.069

[GRAPHIC] [TIFF OMITTED] T8248.070

[GRAPHIC] [TIFF OMITTED] T8248.071

[GRAPHIC] [TIFF OMITTED] T8248.072

[GRAPHIC] [TIFF OMITTED] T8248.073

[GRAPHIC] [TIFF OMITTED] T8248.074

[GRAPHIC] [TIFF OMITTED] T8248.075

[GRAPHIC] [TIFF OMITTED] T8248.076

[GRAPHIC] [TIFF OMITTED] T8248.077

[GRAPHIC] [TIFF OMITTED] T8248.078

[GRAPHIC] [TIFF OMITTED] T8248.079

[GRAPHIC] [TIFF OMITTED] T8248.080


</pre></body></html>
